   U.S. DEPARTMENT OF COMMERCE
             Office of Inspector General




   International Trade Administration


Commerce Service Operations in Argentina
     and Uruguay Are Mostly Sound but
      Financial Processes Need Attention
      Final Inspection Report No. IPE-18111/September 2006



                         PUBLIC RELEASE


             Office of Inspections and Program Evaluations
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         The ,Inspector General
                                                         Washington. D. C. 20230




   SEP   2 9 2006



 MEMORANDUM FOR:                Franklin L. Lavin
                                Under Secretary for International Trade

                               Michelle O' Neill
                               Deputy Under Secretary for International Trade

                               Israel Hernandez
                               Assistant Secretary for Trade Promotion and Director General of
                                 the United States Foreign and Commercial Service


FROM:

SUBJECT:                       Final OIG Inspe 1 n Report
                               Commercial Se e Operations in Argentin d Uruguay Are
                               Mostly Sound Financial Processes Need Attention (IPE- 18111)
As follow up to our August 24 , 2006 , draft report , we are pleased to provide you with the final
report on our inspection of CS operations in Argentina and Uruguay. Thank you for your
comments on the draft report. We also received comments from the Director ofthe Office
Enforcement for the U. S. Patent and Trademark Office. We have considered these comments in
preparing our final report and have attached them in their entirety as appendices to this report.

Our inspection highlighted that we found effective CS management practices in place in
Argentina and Uruguay, favorable client satisfaction with the posts ' services , and mostly sound
administrative operations. We also found financial management practices at both posts that
warranted management attention.

We offer a number of specific recommendations on page 35 that we believe, if implemented , will
help strengthen CS management practices. Weare pleased to note that ITA, in its written
response to our draft report , has already taken or is planning to take action to address many of
our recommendations. We request that you provide us with an action plan addressing the status
ofthe recommendations in our report within 60 calendar days.

We thank the personnel in IT A headquarters and the CS posts in Argentina and Uruguay for their
assistance and the courtesies they extended to us during our review. If you have any questions
about our report , please call me at (202) 482- 4661 or Jill Gross , Assistant Inspector General for
Inspections and Program Evaluations at (202) 482- 2754.


Attachment
U.S. Department of Commerce                                                                                         Final Report IPE-18111
Office of Inspector General                                                                                                 September 2006




                                                           CONTENTS
Summary .......................................................................................................................................... i
Background ......................................................................................................................................1
Objectives, Scope, and Methodology ..............................................................................................3
Observations and Conclusions.........................................................................................................5
I.         Effective Management Practices Promote Collaboration and Partnerships ........................5
           A.         CS Argentina management promotes effective collaboration with partners
                      and stakeholders.......................................................................................................5
           B.         CS Uruguay works closely with CS Argentina and the State Economic
                      Section in Uruguay ..................................................................................................6
           C.         CS Argentina needs to effectively plan for retirement and succession of its
                      senior commercial specialists ..................................................................................7
           D.         CS Argentina and CS Uruguay effectively support export control programs .........7
           E.         Commerce’s new regional standards and IPR attachés in Brazil are not yet
                      active in Argentina and Uruguay .............................................................................8
II.        Posts Generally Satisfy Their Clients but Do Not Maintain Full Export Success
           Documentation...................................................................................................................12
           A.         Most clients were satisfied with the posts’ products and services.........................12
           B.         Market research is comprehensive and informative ..............................................13
           C.         Posts need to maintain adequate documentation to support all their export
                      successes ................................................................................................................14
III.       Accounting and Financial Management Concerns Need Management Attention.............19
           A.         CS Argentina’s certification of its own payments is not permitted by current
                      policy and presents oversight challenges...............................................................19
U.S. Department of Commerce                                                                                Final Report IPE-18111
Office of Inspector General                                                                                        September 2006

         B.        CS Argentina’s accounting practices are inconsistent with ITA policy and
                   bypass Commerce’s internal controls ....................................................................23
         C.        CS and ITA should improve communication of overseas financial
                   management policies..............................................................................................24
         D.        Accounting records for CS Argentina show unliquidated obligations for
                   inactive transactions...............................................................................................25
         E.        CS Uruguay collects and retains user fees for services provided by the
                   State Department....................................................................................................25
IV.      Administrative Management Can Benefit From Minor Improvements.............................30
         A.        CS Argentina’s administrative operations are mostly well managed ....................30
         B.        Better inventory practices and guidance on property disposal are needed ............31
Summary of Recommendations.....................................................................................................35
Appendix A: ITA Management Response to OIG Draft Report ...................................................37
Appendix B: USPTO Management Response to OIG Draft Report..............................................38
U.S. Department of Commerce                                                   Final Report IPE-18111
Office of Inspector General                                                           September 2006

                                          SUMMARY

The U.S. and Foreign Commercial Service (CS) of the International Trade Administration (ITA)
works closely with American businesses as well as federal, state, local, and non-governmental
trade partners to make companies aware of export opportunities and increase U.S. sales abroad.
With offices in 80 countries and 108 domestic cities, CS plays a major role in promoting U.S.
exports.

In June 2006, the U.S. Department of Commerce Office of the Inspector General conducted an
inspection of CS’ offices in Argentina and Uruguay. The review focused on the offices’
management, program operations, and financial and
administrative practices. As part of the review process, we
reviewed pertinent documents, records, and accounting data    Combined Management of CS
                                                              Offices in Argentina and
both in Washington and at the post. We also met with          Uruguay
officials at Commerce headquarters and other relevant U.S.
government agencies in Washington, D.C., and at the posts,    The CS’ offices in Buenos Aires,
and met with key non-governmental partners and clients in     Argentina, and Montevideo,
the United States, Argentina, and Uruguay (see page 3).       Uruguay, are managed by the
                                                                 Senior Commercial Officer (SCO)
                                                                 for Argentina, who also serves as
Our review found that CS Argentina and CS Uruguay are            the SCO to Uruguay. CS’ staff in
providing useful export assistance to U.S. companies and         Uruguay reports to the SCO in
have established collaborative relationships with key U.S.       Argentina but coordinates with the
government offices and non-governmental organizations.           State Department economic
                                                                 counselor in Uruguay on day-to-
Our review found effective administrative management             day matters. Because of this
practices at both posts, but we also identified some financial   combined management structure,
management and accounting concerns that warrant the              we conducted a joint review of both
attention of Commerce managers.                                  CS Argentina and CS Uruguay.

Effective management practices promote collaboration
and partnerships. CS Argentina has effectively cultivated partnerships with local organizations
in Argentina and stakeholders in the United States. It has also developed strong working
relationships with other offices in the embassy. The senior commercial officer (SCO) in Buenos
Aires oversees and closely coordinates with the CS office in Montevideo, Uruguay, which is
staffed by local CS and State Department commercial specialists. Both the SCO in Buenos Aires
and the CS Uruguay commercial specialists coordinate well with the local State Department
economic section. CS Argentina’s River Plate regional initiative also promotes the Uruguay
market to U.S. exporters. In addition, CS Argentina collaborates effectively on export control
activities with Commerce’s Bureau of Industry and Security.

CS Argentina and CS Uruguay also face challenges to maintain and improve the effectiveness of
their existing programs and efforts. CS Argentina should work to retain the extensive
institutional knowledge of its most senior commercial specialists as they approach retirement,
and should consider operating in teams to promote information sharing. Both CS Argentina and
CS Uruguay also face the challenge of developing effective partnerships with Commerce’s
Brazil-based regional programs to promote compatible technical standards and intellectual
property rights protection (see page 5).


                                             i
U.S. Department of Commerce                                                   Final Report IPE-18111
Office of Inspector General                                                           September 2006



Posts generally satisfy their clients but do not maintain full export success documentation.
Feedback from CS Argentina’s and CS Uruguay’s clients during FYs 2005 and 2006 was
generally positive. Most clients were satisfied with the quality and timeliness of the services they
received. We also reviewed the market research products produced by both posts during the
same period. We found the planned market research reports to be comprehensive, although some
reports written before CS developed its new report template did not contain all recommended
elements. The customized market research reports were comprehensive and informative.

We also looked at the posts’ reporting of their export successes, since CS’ handling of this
performance measurement has been a recurring problem cited in OIG reports issued over the last
several years. In order to evaluate the validity of the export successes reported by CS Argentina
and CS Uruguay, we reviewed a sample of the export success reports reported by both posts
during FYs 2005 and 2006. We found that most of the reported successes complied with most
aspects of CS’ export success guidance, and the narratives describing the export successes
generally contained sufficient detail. CS officers did review all reported export success narratives
and did verify the pertinent facts for some of the reported transactions. The posts did not always
maintain sufficient documentation beyond the export success narratives to fully substantiate
reported export transactions and CS’ value-added export-related assistance, as required by CS’
export success guidelines. The posts were able to provide full documentation substantiating only
49 percent of the export successes in our sample, partial documentation for another 34 percent of
the sample, and no documentation for the remaining 17 percent. CS Argentina management
should improve controls for export success reporting in order to ensure compliance with CS’
export success guidelines and verify the accuracy of the posts’ reported successes (see page 12).

Accounting and financial management practices need management attention. During our
review of CS Argentina’s and CS Uruguay’s financial management practices and accounting, we
found several matters of concern. In addition to completing our normal work in this area, we
followed up on a request from CS management that we review the advantages and disadvantages
of CS Argentina’s current process of certifying its own payments in Argentina. Specifically, CS
management sought more information on the process in Argentina as it considered whether it
should seek to have other posts certify their payments in order to reduce charges for
administrative services provided by the State Department.

In 2000 CS Argentina partially opted out of the State Department’s payment certification and
accounting services. We found that there are some advantages to CS’ certification program in
Argentina, but it also presents substantial management and oversight challenges and is not
permitted by current ITA and Commerce policies.

We estimate that CS paid the State Department about $5,400 less in FY 2005 for financial
services than it would have if State had certified CS’ payments in Argentina and kept CS’
accounting records. CS’ current financial management practices in Argentina give CS greater
control over the timeliness of its payments. However, we found that current ITA and Commerce
policies prohibit CS from certifying its own payments in Argentina, and the CS Argentina
officials who were certifying payments at the time of our inspection were not properly authorized
to do so. While CS headquarters staff did authorize CS Argentina officials to certify payments,
CS had no authority to make such a designation. According to Commerce’s financial


                                             ii
U.S. Department of Commerce                                                  Final Report IPE-18111
Office of Inspector General                                                          September 2006

management policies, the chief financial officer (CFO) for ITA is delegated the authority to
designate certifying officers within ITA. In fact, the Department’s deputy CFO re-delegated
certifying authority for all Commerce overseas payments to the State Department on November
24, 2004, in accordance with the Department’s Administrative Order 203-2. The State
Department, however, has never designated CS officials as certifying officers in Argentina.

We also found that CS Argentina does not participate fully in the State Department’s accounts
and records services, as provided through the Interagency Cooperative Administrative Support
Services program. As a result, State does not provide complete accounting services to CS
Argentina and does not verify, audit, or reconcile CS’ accounting transactions in Argentina.
Because such services are normally provided by State, CS Argentina’s accounting practices raise
concerns about the effectiveness of ITA’s internal controls for the post. The practice also appears
to be inconsistent with ITA’s policy on overseas accounting, which holds that the State
Department is the sole provider of accounting services for Commerce’s overseas posts.
According to personnel in ITA’s accounting office, ITA’s accounting practices partially rely on
the State Department’s internal control procedures to verify the overseas transactions reported to
ITA through State’s accounting system. If State does not provide such financial oversight, then
CS Argentina should work with ITA’s Office of Financial Management to establish adequate
alternative controls and oversight of its accounting practices.

CS needs to ensure that its financial management practices in Argentina comply with ITA and
Commerce policies. CS headquarters should coordinate any future financial management
initiatives with ITA’s CFO and its Office of Financial Management to ensure that the initiatives
are permitted and have adequate controls and oversight. CS headquarters and ITA’s Office of
Financial Management should also improve their coordination and communication to ensure that
all CS officials at headquarters and posts are informed on ITA’s overseas financial management
policies.

We also reviewed ITA’s official accounting records for CS Argentina and found unliquidated
obligations for inactive transactions that should be deobligated. In addition, we found that CS
Uruguay collects and retains user fees for services actually provided by the State Department
commercial specialists in Uruguay, even though CS has no authority to retain such fees. At other
partnership posts, CS has established the precedent of transferring such fee collections to the
State Department, and CS should follow a similar process in Uruguay (see page 19).

Administrative management can benefit from minor improvements. CS Argentina’s
management of its human resources, physical office space, information technology, and other
administrative matters are generally effective, but we also found minor concerns at both posts
that warrant management action. Property management, particularly in Uruguay, needs
improvement. CS needs to improve guidance on property and inventory management, including
the disposal of computers and other property so that both posts can properly dispose of obsolete
and surplus items (see page 30).

On page 35, we list a summary of the recommendations to address our concerns.




                                            iii
U.S. Department of Commerce                                                  Final Report IPE-18111
Office of Inspector General                                                          September 2006



ITA and USPTO Responses and OIG Comments

The Under Secretary for International Trade, in responding to our draft report, highlighted
actions that ITA has already taken or is planning to take in order to address many of our
recommendations. The response included detailed steps that ITA is taking to address financial
management concerns identified in our draft report and discussed several enhancements to
administrative practices at CS Argentina and CS Uruguay. However, ITA’s response disagreed
with the draft report’s characterization of CS’ accounting practices in Argentina, and also
proposed no substantial changes to CS’ fee collection procedures in Uruguay. The response also
discussed CS’ current and revised export success reporting requirements, and measures that CS
Argentina is taking to fully comply with those reporting guidelines. In addition, ITA reaffirmed
CS’ ongoing efforts to develop policies for its partnership posts, in collaboration with the State
Department. The response did not indicate any commitment to ensuring regular coordination
between CS’ regional standards attaché in Brazil and the other CS posts in the region.

The U.S. Patent and Trademark Office also provided a response to our draft report. The response
outlined steps that USPTO is taking to ensure that its new regional intellectual property rights
attaché in Sao Paulo, Brazil, will coordinate effectively with CS Argentina to provide support on
intellectual property rights issues. We appreciate the efforts that USPTO has taken to ensure that
its regional attaché in Brazil will provide appropriate levels of support to other CS posts in the
region.

We discuss the ITA and USPTO responses to our findings and recommendations in greater detail
at the end of each chapter of the report. We have also included copies of the responses to our
draft report in their entirety as appendices to this report.




                                            iv
U.S. Department of Commerce                                                                  Final Report IPE-18111
Office of Inspector General                                                                          September 2006

                                              BACKGROUND

CS Argentina

The U.S. Commercial Service (CS) maintains an office in Buenos                       Figure 1: Argentina Country Profile (2005)
Aires, Argentina, tasked with promoting U.S. exports and U.S.                        Population: 39.9 million
commercial interests in Argentina (see Figure 1). 1 The office is                    Size:       1.07 million square miles
                                                                                     GDP:        $518 billion (purchasing power
located inside the U.S. embassy and had a total budget of                                        parity – PPP)
$943,312 in FY 2005 and $864,780 in FY 2006. 2 CS Argentina is
                                                                                     Major industries: consumer durables,
organized under CS’ Office of International Operations (OIO) and                     chemicals and petrochemicals, food
reports to the regional director for the Western Hemisphere                          processing, motor vehicles, metallurgy, and
                                                                                     textiles.
stationed at CS headquarters in Washington, DC. CS reduced its
staffing level in Argentina as U.S. exports declined (see Figure 3)                  Leading agricultural exports: fruits, corn,
                                                                                     tobacco, peanuts, wheat, and livestock.
                                       following the devaluation of
                                       the Argentine peso in 2002                    Leading sectors for U.S. exports and
                                                                                     investment: agricultural machinery, electric
                                       and the concurrent severe                     power systems, information technology,
                                       economic recession. 3 CS                      medical equipment and supplies, and mining
                                                                                     machinery
                                       currently maintains a staff in
                                       Argentina consisting of a                     Source: CIA World Fact Book (2006) and CS
                                                                                     Argentina’s Country Commercial Guide 2006.
                                       Senior Commercial Officer
                                       (SCO), a junior Commercial
                                       Officer (CO), and 15 local staff.


                             Montevideo




1
  The U.S. Commercial Service is also known as the U.S. and Foreign Commercial Service.
2
  These figures include overhead and administrative costs, officer and foreign service national salaries, and actual
charges from the State Department for administrative services.
3
  In 2002, Argentina’s economy contracted by 11%, which was triggered by the central government’s default on its
sovereign debt and the devaluation of the Argentina peso, which increased inflation and unemployment. The
economy stabilized by mid-year and from 2003 through 2005, it grew at a 9 percent annual rate.


                                                          1
U.S. Department of Commerce                                                                                 Final Report IPE-18111
Office of Inspector General                                                                                         September 2006

CS Uruguay

CS has maintained an office at the U.S. embassy in Montevideo,             Figure 2: Uruguay Country Profile (2005)
Uruguay since 1996 (see Figure 2). Both Argentina and Uruguay,
                                                                           Population: 3.4 million
along with Brazil, Paraguay, and Venezuela, are full members of            Size:          68,040 square miles
the Mercado Común del Sur (Common Market of the South or                   GDP:           $32.9 billion (PPP)
                              4
MERCOSUR) customs union. CS Uruguay’s staff is currently                   Major industries: beverages, chemicals,
composed of two locally hired CS commercial specialists and two            electrical machinery, food processing,
                                                                           petroleum products, and textiles.
                                    State Department commercial
                                    specialists. CS Uruguay was            Leading agricultural exports: barley, corn,
                                                                           fish, livestock, rice, and wheat
                                    budgeted $110,803 for FY
                                    2005 and $120,280 for FY               Leading sectors for U.S. exports and
                                                                           investment: agriculture, chemicals,
                                    2006. While the combined CS            telecommunications, fertilizers, and
                                    staff in Montevideo report to          infrastructure projects

                                    the State Department’s                 Source: CIA World Fact Book (2006) and CS
                                    economic counselor on day-             Uruguay’s Country Commercial Guide 2006.

                                    to-day matters, the SCO in
                                    Argentina, who makes
                                    quarterly visits there, is the actual supervisor of the CS staff
                                    in Uruguay.



      Figure 3: U.S. Exports to Argentina and Uruguay
                                   $5,000.00

                                   $4,500.00

                                   $4,000.00
         U.S. Exports (Millions)




                                   $3,500.00

                                   $3,000.00

                                   $2,500.00

                                   $2,000.00

                                   $1,500.00

                                   $1,000.00

                                    $500.00

                                        $-
                                               2000     2001         2002          2003         2004            2005

                                                      U.S. Exports to Argentina   U.S. Exports to Uruguay

      Source: Census Bureau




4
 MERCOSUR is a customs union founded in 1991 by Argentina, Brazil, Paraguay, and Uruguay upon the signing
of the Treaty of Asuncion that aims to eliminate customs restrictions on goods exchanged between member nations
and to establish a uniform tariff policy towards nonmember nations. Currently, Bolivia, Chile, Colombia, Ecuador,
and Peru are associate members.


                                                                      2
U.S. Department of Commerce                                                             Final Report IPE-18111
Office of Inspector General                                                                     September 2006

                      OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of this inspection was to assess the effectiveness of the management, programs, and
financial and administrative practices of CS operations in Argentina and Uruguay. Our office
conducted this inspection under the authority of the Inspector General Act of 1978, as amended,
and in accordance with the Quality Standards for Inspections issued by the President’s Council
on Integrity and Efficiency in 2005. Our review was conducted concurrently with a separate OIG
review of Commerce’s post in Brazil. Specifically, we sought to determine whether:

       CS’ management and oversight of its offices in Argentina and Uruguay are effective;
       CS Argentina and CS Uruguay are planning, organizing, and managing their work and
        resources effectively and efficiently;
       CS Argentina and CS Uruguay exploit any regional opportunities for trade promotion;
       CS Argentina and CS Uruguay are meeting the needs of U.S. exporters through effective
        products, services and follow up with clients;
       CS Argentina and CS Uruguay provide sufficient support of other Commerce-related
        programs and initiatives, including export controls and end-use checks, efforts to improve
        market access for U.S. products and services, and initiatives to protect intellectual
        property;
       CS Argentina and CS Uruguay report complete and accurate performance measures,
        including export success stories;
       CS Argentina and CS Uruguay operate with proper internal controls and financial and
        administrative management practices;
       training and support for CS officers and foreign national staff are generally sufficient;
        and
       CS Argentina and CS Uruguay use “best practices,” special programs, regional
        initiatives, or other innovations that could be useful to other CS posts and operations.

To accomplish our objectives, we:

       interviewed appropriate Commerce and CS headquarters staff;
       interviewed all Commerce staff at CS Argentina and CS Uruguay;
       interviewed trade partners from various federal agencies and organizations, industry
        associations, and business partners that regularly collaborate with the two posts;
       reviewed FY 2005 and FY 2006 export success performance data;
       contacted a sample of clients that utilized the posts’ services; and
       examined pertinent files and records relating to both posts’ internal controls and financial
        and administrative management for fiscal years 2004 to 2006.

We conducted our fieldwork from May 3 to July 14, 2006, including visits to CS Argentina and
CS Uruguay from June 12 to June 23, 2006. During the course of our review we also met with
the U.S. Ambassador and Deputy Chief of Mission in Argentina, the Chargé d’Affaires and
Acting Deputy Chief of Mission in Uruguay 5 , and U.S. consular, administrative, economic,
political, and security officials at both posts. We also spoke with representatives from trade

5
 In Uruguay, we interviewed the Chargé d’Affaires and Acting Deputy Chief of Mission because there is currently
no ambassador assigned to that post.


                                                       3
U.S. Department of Commerce                                                   Final Report IPE-18111
Office of Inspector General                                                           September 2006

partner associations and foreign companies who have conducted business with U.S. companies
(see Table 1).

During our review, we discussed our      Table 1. OIG Meetings in Argentina and Uruguay
findings with the CS Argentina SCO       In addition to meeting with officials of U.S. trade-related
and senior embassy officials. Upon       agencies, we met with representatives from the following
our return to Washington, D.C, we        organizations in Argentina and Uruguay:
also discussed our findings with ITA’s        American Chamber of Commerce in Argentina
                                              American Chamber of Commerce in Uruguay
Deputy Under Secretary, the Assistant
                                              Visit USA Committee Argentina
Secretary and Director General of the         Fundación Nueva Generación Argentina, Network
U.S. and Foreign Commercial Service               USA Trade Partner
and his staff, and the acting chief           Several CS Argentina clients
financial officer for ITA.               Source: OIG




                                               4
U.S. Department of Commerce                                                    Final Report IPE-18111
Office of Inspector General                                                            September 2006

                         OBSERVATIONS AND CONCLUSIONS

I.     Effective Management Practices Promote Collaboration and Partnerships

We examined CS management practices to determine whether CS Argentina and CS Uruguay
have effectively cultivated partnerships with local organizations and stakeholders in the United
States and whether they have developed strong working relationships with other sections of the
U.S. embassy in both countries. Such collaboration and partnerships help to promote U.S.
exports by effectively leveraging the resources of other organizations to assist CS in
accomplishing its objectives.

A.     CS Argentina management promotes effective collaboration with partners and
       stakeholders

Our review found that CS Argentina collaborates well overall with other embassy sections in
Argentina and Uruguay and with its partners and stakeholders in the U.S. and Argentina.
Commerce headquarters offices and key stakeholders in Washington, D.C., including Market
Access and Compliance (MAC) and the Overseas Private Investment Corporation (OPIC) also
gave OIG positive feedback on CS Argentina and its management team. MAC specifically
praised CS Argentina for its responsiveness on market access and compliance issues.

CS Argentina’s SCO has cultivated productive relationships within the embassy, thus helping CS
to leverage the resources of other embassy components to assist it in promoting U.S. exports and
commercial interests in Argentina. The SCO’s efforts to reach out to other embassy offices may
present a useful model for other CS posts. Officials from other embassy sections praised the CS
officers for their coordination and cooperation. The State Department’s economic counselor
described a close partnership with the CS office. According to the economic counselor, CS and
the economic section “have found a way to build on each others’ strengths and cover each
others’ weaknesses.” The economic counselor also described how the two sections have begun
working together more closely to maintain the embassy’s economic and commercial contacts in
the local community as new officers rotate into the SCO and economic counselor positions. The
agriculture counselor also recounted successful collaborations with CS, including joint work on
an intellectual property rights dispute involving a large U.S. agricultural products company.

Other officers within the embassy, including the public affairs officer and the defense attaché,
also described productive relationships with the commercial section, and they specifically
praised the CS officers for keeping other embassy sections informed of CS activities and
initiatives and inviting them to relevant events. The political counselor described collaborative
efforts with CS and noted that CS makes a point of inviting him to its functions, which has
expanded his circle of contacts within the local community. The consul general noted that CS
provides high-quality visa referrals and regularly uses the visa referral program to facilitate visa
applications that promote U.S. commercial interest. CS has also collaborated with the Homeland
Security and FBI officers to promote the export of security equipment to Argentina.

The CS office in Buenos Aires has also cultivated effective partnerships with several Argentina
organizations. These partnerships allow CS to leverage the resources and contacts of other



                                                 5
U.S. Department of Commerce                                                                Final Report IPE-18111
Office of Inspector General                                                                        September 2006

organizations to support U.S. commercial interests and coordinate effectively when CS shares
common objectives. The SCO regularly participates in meetings with the American Chamber of
Commerce in Buenos Aires. This coordination has been particularly important as both
organizations have sought to deal with concerns relating to the aftermath of Argentina’s debt
default and currency devaluation in 2002. CS personnel also regularly coordinate with the
Buenos Aires Visit USA Committee, an organization that seeks to promote travel and tourism to
the United States. The post has also begun developing a partnership program in Argentina
loosely modeled after the Network USA (NUSA) program in Brazil. This program develops
partnerships with private organizations in cities without CS offices to open business contacts in
provincial cities to CS and provide private organizations with contacts in the embassy. Such
relationships could assist CS in promoting exports in provincial cities where it has no direct
presence. CS Argentina has developed its initial partnership in the city of Rosario and is seeking
to establish a similar partnership with the American Chamber of Commerce in the city of
Córdoba.

B.      CS Uruguay works closely with CS Argentina and the State Economic Section in
        Uruguay

CS maintains an office in Montevideo, Uruguay, with two commercial specialists but no CS
officer. The CS staff reports locally to the State Department economic counselor, but is managed
by the SCO in Buenos Aires. There are also two State Department commercial specialists in
Montevideo who work closely with their CS counterparts. All four commercial specialists work
together to promote U.S. exports in Uruguay, provide traditional CS services, such as Gold Key
and International Partner Search, and claim export successes for the Department of Commerce
(see discussion of products and services in chapter II). We found that the CS staff works closely
with the State Department commercial specialists and the State economic counselor on a day-to-
day basis. Both CS and State staff work to support U.S. exporters, with each specialist focusing
on specific industries. The CS staff also maintains a constructive relationship with other
components of the embassy as well as the American Chamber of Commerce in Montevideo,
which was helping CS to plan for a visiting trade delegation at the time of our visit.

The SCO in Argentina manages the CS staff in Uruguay and communicates regularly with them.
The SCO tries to include CS Uruguay staff in CS Argentina’s operations, such as weekly staff
meetings (via telephone) and offsite conferences. The SCO also makes quarterly visits to
Montevideo and communicates regularly with the State Department economic counselor. The
regular collaboration and consultations with CS Argentina staff and officers allow CS Uruguay
staff to stay up-to-date with developments in Argentina that may affect CS Uruguay, such as
upcoming trade missions or official delegations.

In order to promote Uruguay as a market for U.S. exporters and U.S. companies with an interest
in Argentina, the SCO developed the River Plate initiative. 6 Under the umbrella of this initiative,
the SCO promotes the Uruguay market to delegations and trade missions visiting Buenos Aires,
some of which may add Uruguay to their itinerary. In fall 2005, a Commerce delegation
including the Deputy Assistant Secretary for Market Access and Compliance visited Montevideo

6
 This initiative is named for the river separating Montevideo and Buenos Aires, known as the Rio de la Plata in
Spanish or the River Plate in English.


                                                         6
U.S. Department of Commerce                                                                 Final Report IPE-18111
Office of Inspector General                                                                         September 2006

for a day as part of a trip to Buenos Aires. CS Argentina also promotes the Uruguay market to
businesses that request CS services and counseling in Argentina and has included Uruguay in its
web site. Such efforts have helped to stimulate demand for CS products and services in Uruguay
and raise the profile of the Uruguay market for U.S. exporters.

C.       CS Argentina needs to effectively plan for retirement and succession of its senior
         commercial specialists

At least two CS Argentina’s senior commercial specialists are approaching retirement after 30
years of service. These senior specialists have high-ranking contacts in the Argentine
government and are a key resource for CS as well as other embassy sections. Many embassy
officials, including the Ambassador, expressed confidence in the senior commercial specialists
and praised their extensive business and government contacts. CS Argentina’s management
needs to plan effectively to minimize the impact of their departure on the office’s institutional
knowledge and ability to support U.S. exporters. In order to provide more opportunities for
senior commercial specialists to share their knowledge, expertise, and contacts with their more
junior colleagues, CS Argentina management should consider developing industry-sector teams.
Currently, CS Argentina’s commercial specialists are each assigned separate, non-overlapping
industry sectors, and some commercial specialists noted that they rarely work together as teams
on the same projects.

D.       CS Argentina and CS Uruguay effectively support export control programs

CS Argentina effectively provides support to Commerce’s Bureau of Industry and Security (BIS)
on its export control end-use check program. 7 According to records provided by BIS, CS
Argentina had conducted three end-use checks during FY 2005 and through April 30, 2006 using
the guidance outlined in BIS’ current end-use check handbook. 8 The officer tasked with this
responsibility also consults with the appropriate commercial specialist responsible for the subject
company’s industry sector to obtain any relevant information to assist in conducting the check.
BIS informed us that the commercial officer at CS Argentina conducted timely end-use checks of
good quality. In addition, we found that CS Argentina maintains required documentation of end-
use checks.

The commercial officer at CS Argentina did not receive end-use check training prior to being
posted to Buenos Aires. While neither we nor BIS found any problems with the three end-use
checks conducted, the commercial officer noted that training on the export control end-use
program would be useful for officers before their arrival at a post because many of these officers
do not have experience in conducting end-use checks.




7
  End-use checks consist of pre-license checks, which help ensure that an overseas company is a reliable recipient of
U.S. dual-use export controlled technology, and post-shipment verifications, which help verify that U.S. dual-use
export-controlled technology is being used according to export license conditions. CS officers conduct end-use
checks on behalf of BIS per the terms of a 1988 memorandum of understanding between both agencies.
8
  Bureau of Industry and Security, How to Conduct Pre-License Checks and Post-Shipment Verifications, January
2004.


                                                          7
U.S. Department of Commerce                                                             Final Report IPE-18111
Office of Inspector General                                                                     September 2006

BIS informed us that it offers to meet with and provide end-use check training to commercial
officers while they are at CS headquarters for pre-travel consultations and training. In our FY
2003 report on BIS’ export enforcement program, 9 we recommended that BIS work with CS to
provide end-use check training to commercial officers. BIS responded to our recommendation by
stating that, in addition to providing end-use check training at CS officer seminars conducted in
the U.S., it would provide training to commercial officers in Washington, DC, before they are
dispatched overseas. However, BIS relies on CS to include a meeting with BIS on the officer’s
schedule in order for the officer to receive end-use check training. We note that the commercial
officer at CS Argentina is scheduled to depart post in December 2006. CS should ensure that it
includes BIS on the schedule of meetings at CS headquarters for the incoming CS Argentina
officer as well as for all commercial officers being posted overseas and for those who return to
headquarters for consultation. End-use check training can also be provided at posts when a BIS
Sentinel team is in country to do end-use checks. However, no Sentinel team is scheduled to visit
Argentina in the near future.

According to BIS’ records, there were no end-use checks conducted in Uruguay during FY 2005
and through April 30, 2006. In Uruguay, the Immigration and Customs Enforcement attaché,
accompanied by an FSN investigator, conducts dual-use end-use checks. The FSN investigator
consults with CS staff to obtain relevant company information to assist in conducting end-use
checks. Adequate end-use check documentation is maintained by Customs staff in one central
location along with other investigative files, thereby allowing BIS to retrieve information quickly
if necessary. However, we found that the attaché did not have a current version of the end-use
check handbook. 10 As a result of our review, CS Uruguay staff provided the attaché with the
current end-use check handbook.

E.      Commerce’s new regional standards and IPR attachés in Brazil are not yet active in
        Argentina and Uruguay

In April 2006, CS assigned an officer with standards responsibilities to Sao Paulo, Brazil. This
CS officer has regional responsibilities for facilitating U.S. exports by encouraging
harmonization of U.S. and foreign standards and assisting CS posts in South America in their
coordination with local standards-setting bodies. The regional standards attaché in Sao Paulo will
also assist in providing standards training for staff in other CS posts in the region. CS has
standards attachés stationed in Mexico and Brazil serving the western hemisphere region as part
of the western hemisphere regional standards program that Commerce initiated in February
2004. 11 The regional standards attachés serve as points of contact on standards issues for posts
within their region. According to the western hemisphere standards action plan for FY 2006, all
CS posts in the region, including CS Argentina, are responsible for implementing the “four core
activities” of the standards program. These activities include:



9
  Commerce OIG, Improvements Are Needed To Better Enforce Dual-Use Export Control Laws (IPE-15155), March
2003.
10
   Although BIS’ end-use check handbook was revised in January 2004, the current version and previous (2000)
version contain the same reporting requirements.
11
   The officer in Mexico is responsible for the area covering Mexico, Canada, Central America, and the Caribbean
while the officer in Brazil is responsible for South America.


                                                       8
U.S. Department of Commerce                                                          Final Report IPE-18111
Office of Inspector General                                                                  September 2006

          Ensuring that the standards team at each post has the training and skills needed to achieve
           the program objectives;
          Meeting regularly with their host country principal national standards bodies, both public
           and private;
          Monitoring and reporting on their host country standards- and compliance-related matters
           and producing an appropriate number of market research reports annually; and
          Involving their local, host country American Chambers of Commerce in standards-related
           matters.

The standards attaché in Brazil, who received training at the National Institute of Standards and
Technology, is the first officer to occupy that position in almost a year, according to ITA. During
this vacancy, other embassies in South America coordinated their standards-related efforts with
the officer in Mexico. At the time of OIG’s review of CS operations in Brazil in June 2006, the
new standards attaché had not yet established the degree of support that he would provide to
other posts in South America, and was planning on combining other responsibilities, such as
ICASS coordination and the travel and tourism industry sector, with his standards portfolio.

Following his arrival in Sao Paulo, the new standards attaché formulated a work plan for his
position, which was approved by the SCO in Brazil. In accordance with that plan, the attaché
would meet with interested parties and Brazilian and MERCOSUR standards development
organizations and conduct research on Brazilian standards issues. After that research is
completed, the attaché and his staff planned to work with CS headquarters to complete the same
exercise with other CS officers in their respective countries in the region.

When we visited CS Argentina and CS Uruguay two months after the standards attaché’s arrival
at CS Sao Paulo, we found that the SCO in Argentina was in regular contact with CS’ Western
Hemisphere standards attaché in Mexico, but was not sure how the standards attaché in Brazil
would support efforts in Argentina. We also found that the economic affairs counselor in
Uruguay was unaware of CS’ regional standards program, but said he would appreciate
assistance on standards issues.

Upon our return to Washington, we met with ITA’s standards liaison in Washington, DC, to
discuss the program and its relevance to the partnership post in Uruguay. After our discussion,
staff from her office promptly worked with the standards attaché in Mexico to include the
economic counselor in Uruguay on CS’ western hemisphere standards email list so that he can
receive current information on standards-related matters. 12 As Commerce further enhances this
regional effort after the long vacancy in the standards position in Brazil, CS should work to
establish an effective partnership between its Brazil-based regional standards attaché and its
posts in Argentina and Uruguay.

Similar to the CS standards attaché in Brazil, the U.S. Patent and Trademark Office (USPTO)
recently created a new officer position in Brazil with regional responsibilities for intellectual
property rights (IPR) protection. This IPR attaché is scheduled to arrive in Sao Paulo in
September 2006. Staff from the USPTO Office of International Relations told us the attaché
would only directly handle intellectual property rights issues in Brazil. The attaché will not be
12
     The standards attaché in Mexico initiated this contact list and maintains it.


                                                              9
U.S. Department of Commerce                                                    Final Report IPE-18111
Office of Inspector General                                                            September 2006

accredited as a diplomat to other countries in the region, but would provide assistance to other
embassies in the region as appropriate. The Ambassador in Argentina noted that additional
assistance on IPR issues from the USPTO attaché could be helpful. During our review, the SCO
in Argentina was aware of the IPR program but had not yet been consulted on the program’s
content and how the program could be useful for Argentina. As this effort progresses, USPTO
anticipates that the new IPR attaché will need to coordinate with the other CS posts in the region
in order to determine how the program can add value to these posts.

Recommendations:

The Assistant Secretary for Trade Promotion and Director General of the U.S. and Foreign
Commercial Service should ensure that:
   •   CS Argentina takes action to foster greater cooperation between the senior commercial
       specialists and the less-experienced CS staff in order to help transfer the institutional
       knowledge and contacts of its senior commercial specialists.
   •   CS schedules a meeting with BIS for commercial officers being deployed to overseas
       posts and for those who return to CS headquarters for consultation in order for them to
       receive appropriate initial or refresher training on conducting end-use checks.
   •   The regional standards attaché in Brazil regularly coordinates with and provides adequate
       support to the other CS posts in South America, including the CS office in Buenos Aires
       and the economic affairs section in Montevideo.



ITA and USPTO Responses and OIG Comments

In response to our recommendation that CS Argentina take action to foster greater cooperation
between its senior commercial specialists and its less-experienced staff, ITA discussed measures
CS had taken during FY 2005 to pair the senior commercial specialists with the less-experienced
commercial assistants. While this initiative has promise, we did not see any signs of such
pairings during our inspection, and the FY 2005 initiative was not mentioned by the SCO or any
of the commercial specialists or commercial assistants. CS Argentina should implement or
reactivate this initiative, or take other appropriate measures, to encourage greater information
sharing among its staff and make sure that the staff partnerships are more active in the office’s
day-to-day work activities.

In its written response to our draft report, ITA said that export control end-use check training
will be incorporated into the routine junior officer training held in Washington, DC. ITA stated
that it would also explore ways to identify and schedule appropriate consultations with BIS for
visiting officers to receive end-use check training, noting that not every visiting officer would
require such training. We acknowledge that end-use check training might not be necessary for
every visiting incumbent officer if that officer received training during a recent consultation or at
a post from a BIS attaché or visiting BIS sentinel team. However, for incumbent officers whose
end-use check training was provided several years ago, we believe refresher training would be
appropriate in order for them to be aware of any changes in end-use check procedures or relevant


                                                 10
U.S. Department of Commerce                                                   Final Report IPE-18111
Office of Inspector General                                                           September 2006

export control regulations. We also believe that ITA’s proposed effort to have BIS provide end-
use check training at its junior officer training will provide these new officers with the
knowledge and resources necessary to carry out this important function. We made a slight
change in our recommendation on BIS training to address this point as well as ITA’s comments
on this section of the draft report.

In response to our recommendation to promote effective cooperation between the regional
standards attaché in Brazil and the other CS posts in South America, ITA provided additional
information on its western hemisphere standards program. ITA’s response stated that the
standards attaché in Mexico had been in regular communication with CS Argentina during the
almost year-long period when the standards attaché position in Brazil was vacant prior to the
new attaché being posted in April 2006. ITA also confirmed that the U.S. mission in Uruguay
(specifically, the economic affairs counselor) is now included in the roster of CS standards
contacts so that he may stay up-to-date on any standards-related issues or discussions. However,
ITA’s response did not specifically address our recommendation regarding the standards attaché
in Brazil. We recognize that, at the time of our inspection, the attaché in Brazil did not yet have
the opportunity to fully engage his regional contacts and other CS offices in the region.
However, we hope that as the attaché resumes his post in Sao Paulo following his home leave, he
will make contact with and provide ongoing support to other CS posts in South America,
including Argentina and Uruguay. We would appreciate receiving information on the Brazil
attaché’s efforts to coordinate and support the posts in Argentina and Uruguay on standards
issues when ITA prepares its action plan for addressing the recommendations in this report.

In its written response to our draft report, USPTO said that its headquarters staff and the
incoming IPR attaché in Brazil had conferred with the SCO in Argentina regarding the new
officer position. USPTO recognized that additional resources and support on IPR issues could be
useful for Argentina and said that the attaché will seek to coordinate and provide support on IPR
issues to CS Argentina as appropriate. The attaché also will consult on IPR issues with other CS
posts in the region to determine the level of assistance to provide. Once at his post, we hope that
the attaché will maintain open lines of communications with CS posts to assist them with IPR
issues as needed.




                                                11
U.S. Department of Commerce                                                                 Final Report IPE-18111
Office of Inspector General                                                                         September 2006

II.        Posts Generally Satisfy Their Clients but Do Not Maintain Full Export Success
           Documentation

CS Argentina and CS Uruguay provide a number of products and services to U.S. companies.
We contacted clients from both posts to measure their satisfaction with the services received. We
also reviewed market research products issued by both posts during the same period. Finally, we
reviewed a sample of export successes, CS’ primary performance measure, reported by both CS
Argentina and CS Uruguay during FYs 2005 and 2006. 13 We paid particular attention to the
posts’ export success documentation and verification procedures since this has been a recurring
concern, as cited in recent OIG inspection reports. Overall, we found that most of CS
Argentina’s and CS Uruguay’s clients were satisfied with the products and services that they
received. In addition, although we found improvements over what we saw at other CS posts, we
found that CS Argentina and CS Uruguay did not always maintain adequate documentation to
support all of their export successes.

A.         Most clients were satisfied with the posts’ products and services

To gauge client satisfaction, we sought feedback from some of the 66 clients that received a
product or service from either CS Argentina or CS Uruguay during FY 2005 and through April
2006. (See Table 2.)

 Table 2: CS Argentina and Uruguay’s Products and Services
   For the Product and Service:                        CS Argentina and CS Uruguay will:
                                Provide services during a company’s visit, such as translation, use of CS
 Business Facilitation Service
                                facilities/space, and couriers.
                                Prepare market research to fit the unique needs and requirements of a U.S.
 Customized Market Research
                                company.
                                Identify and arrange appointments with potential buyers or key players in
 Gold Key Service
                                respective markets.
 International Buyer Program    Promote major U.S. trade exhibitions to Argentine and Uruguayan buyers.
                                Provide detailed background information on a foreign company to help the
 International Company Profile
                                U.S. firm evaluate its potential as a partner.
 International Partner Search   Locate, screen, and assess potential overseas sales representatives.
 Platinum Key Service           Support a U.S. company’s long-term exporting goals with ongoing assistance.
 Source: Commercial Service

We contacted 42 companies that had not already responded to surveys from CS’ Customer
Relationship Management Unit. We received 15 responses (36 percent). Thirteen of the 15
clients who responded to our survey reported being satisfied with the service they received (see
Figure 4). Specifically, eight were “very satisfied” with their service and five were “satisfied.”
Six of these clients used Business Facilitation Services, three used customized market research,
two used Gold Key Services, and two used the International Partner Search service. The
turnaround time varied for each service, but the majority of our respondents received requested
services within four weeks. However, two respondents to our survey were not satisfied with CS’
Gold Key Services. One was dissatisfied with the trade leads provided by CS and the lack of
product market data and the other was unsure of the benefit because CS did not clearly
communicate what the service would accomplish and what it would cost.
13
     We selected our sample of export successes from those that were approved before April 26, 2006.


                                                          12
U.S. Department of Commerce                                                              Final Report IPE-18111
Office of Inspector General                                                                      September 2006

We also reviewed surveys sent to and received          Figure 4: Client Satisfaction with CS
by CS’ Customer Relationship Management                Argentina and CS Uruguay as Measured
Unit from the posts’ customers who obtained            by OIG Survey Responses
services during the same period. These were
from clients of CS Argentina and CS Uruguay
                                                                                     Very Satisfied (8)
who received Customized Market Research and
Gold Key Services. Clients of CS Argentina also                                      Satisfied (5)
received International Partner Searches while
those of CS Uruguay also received International                                      Dissatisfied (1)
Company Profiles. In FYs 2005 and 2006
through the end of April, the unit received 25                                       Unsure (1)
surveys from clients of both posts with the
following results; 12 reported being “extremely        Source: OIG
satisfied,” 12 were “satisfied,” and only 1 was
“dissatisfied.” Based on our review of both sets
of client satisfaction surveys, only 3 of the 40 responsive clients reported dissatisfaction with
CS’ services.

B.      Market research is comprehensive and informative

Overall, we found that CS Argentina’s and CS
Uruguay’s market research products are                          Figure 5: CS’ Market Research Reports
informative and meet the needs of their clients. We
                                                                Planned market research reports provide
examined a sample of planned, unplanned, and                    sector-level market research information to
customized market research products formulated                  help U.S. companies assess market
by CS Argentina and CS Uruguay (see Figure 5).                  opportunities for their products and
According to the SCO, CS Argentina issued 28                    services.
planned market research reports in calendar years               Unplanned market research reports provide
2005 and 2006 (through May 31, 2006), while CS                  information to U.S. exporters on
Uruguay issued 9. According to CS’ internal                     international market trends and unique
                                                                business opportunities.
market research web site, CS Argentina is
scheduled to produce 25 planned market research                 Customized market research reports address
reports for all of calendar year 2006. CS Uruguay               a client’s particular questions or concerns
                                                                regarding the markets for its
is scheduled to produce nine reports.                           products/services.

Planned market research reports completed by           Source: Commercial Service
both posts covered areas such as aircrafts and
parts, pre-fabricated housing, textile products,
generator equipment, and pleasure boats and equipment. 14 These reports provide information to
U.S. exporters about market conditions for select industry sectors. We found them to be
comprehensive and informative. In addition, the posts generally followed the format
recommended by CS’ Office of Trade Promotion Programs (see Figure 6). We noticed that some



14
  Planned market research reports, known formerly as Industry Sector Analysis reports, are recorded by calendar
year.


                                                       13
U.S. Department of Commerce                                                                  Final Report IPE-18111
Office of Inspector General                                                                          September 2006

older reports lacked both an international copyright                           Figure 6: Standard Elements for
notice and a standard disclaimer, 15 but 2006 reports                         Planned Market Research Reports
conformed to the format introduced in February 2006.
CS Argentina and CS Uruguay should continue to use                        −     Summary
                                                                          −     Market overview
the templates provided by headquarters for their market
                                                                          −     Market trends
research reports.                                                         −     Import market
                                                                          −     Competition
CS Argentina and CS Uruguay also issued 188                               −     End users
unplanned market research reports during FYs 2005 and                     −     Market access
2006 (through May 31, 2006) on a wide range of topics,                    −     Market entry
such as the auto industry and veterinary and medical                      −     Contacts
research. Those reports were informative and varied in                    −     Upcoming trade shows
                                                                          −     International copyright
length from a few sentences up to five pages.
                                                                          −     Disclaimer

We also examined two customized market research              Source: Commercial Service
products produced by CS Argentina, which were
basically contact lists and brief financial studies
requested by U.S. exporters seeking information on potential buyers or distributors in Argentina.
The contact lists followed a standard format designed by CS Argentina that included contact
information and brief information about companies, their type of business, and their products.
Overall, CS Argentina’s and CS Uruguay’s market research products are informative and appear
to meet the needs of their clients.

C.       Posts need to maintain adequate documentation to support all their export successes

CS’ primary performance goal is to “expand [the] U.S. exporter base.” Measuring progress
towards that goal relies on verified export transactions (referred to by CS as export successes)
facilitated by CS among new and existing U.S. exporters. According to CS guidance, “export
successes document the link between CS assistance to U.S. companies and the significant export
benefits that result from that assistance.” For an export success to be valid, an actual export sale
must have been made or other significant benefit received by a U.S. exporter, such as the signing
of a distribution or joint venture agreement, removal of a market access barrier, or resolution of
an export trade complaint. In addition, a value-added service must have been provided by CS to
facilitate the export sale or benefit. For CS Argentina and CS Uruguay, export successes are
approved by the SCO or the CO and recorded into eMenu, CS’ online records and information
management system. This information is shared with CS headquarters, the Department, and
Congress.

In FYs 2005 and 2006 (through April 26, 2006), CS Argentina and CS Uruguay recorded 244
and 48 export successes, respectively. Both posts recorded increases in export successes from FY
2003 to FY 2005 (see Figure 7). Export successes for both posts covered a wide range of
industry sectors, including travel and tourism services, telecommunications equipment, general
industrial equipment, computer software and peripherals, and automotive parts and services.

15
  An international copyright notice informs the reader of CS’ legal right of exclusive publication. The disclaimer
informs the reader that CS makes every effort to ensure accuracy but does not guarantee it and advises the reader to
independently verify the information prior to acting on it.


                                                         14
U.S. Department of Commerce                                                                                          Final Report IPE-18111
Office of Inspector General                                                                                                  September 2006

Figure 7: Export Successes Reported by CS Argentina and CS
Uruguay, FYs 2003-2006 (through April 26, 2006)
     Number of Reported Export Successes



                                           200
                                                                               178
                                           180
                                           160   152

                                           140              121
                                           120
                                                                                                         Argentina
                                           100
                                                                                                         Uruguay
                                           80                                                  66
                                           60
                                                                  31                  34
                                           40          21
                                                                                                    14
                                           20
                                            0
                                                  2003       2004                  2005         2006
                                                                    Fiscal Years


 Source: eMenu

We selected a random sample of 53 export successes (46 from CS Argentina and 7 from CS
Uruguay) to verify their validity. 16 We sent out questionnaires to representatives from each
company involved and received 8 responses (15 percent). In addition, we reviewed
documentation provided by CS Argentina and CS Uruguay which included export success
narratives, records of client counseling sessions, email communications between CS Argentina
and CS Uruguay and their clients, lists of recent International Buyer Program participants, and
several sales invoices. We also met with representatives of two Argentine companies—a major
aircraft distributor and a travel agency. Both said commercial specialists provided assistance that
facilitated the purchase of U.S. exports, which
appears to verify eight export successes in our
sample.                                                  Figure 8: Export Success
                                                         Documentation Provided by CS
We found one invalid export success, an April            Argentina and CS Uruguay
2005 claim that CS helped a U.S. company
appoint an Argentine distributor for its products.             9
In a telephone conversation, the U.S. company
representative informed us that it was still in                                         Full
negotiations with the Argentine company.                                       26       Partial
Because the U.S. company had not yet realized                                           Only Narrative
any export-related benefit recognized by CS’               18
export success guidance, the export success is
invalid. We reported this to the SCO in
Argentina, who said he would rescind the export
success. We found few other obvious problems              Source: CS records and OIG review
with the export successes reported by CS
Argentina and CS Uruguay, but we could not
fully verify all of the export successes in our sample. Export success narratives generally

16
  This sample was selected using a 90 percent confidence level with a 10 percent confidence interval. This means
that we are 90 percent certain that the actual values for the population fall within 10 percentage points of the values
reported for our sample.


                                                                                          15
U.S. Department of Commerce                                                            Final Report IPE-18111
Office of Inspector General                                                                    September 2006

contained all relevant details of the transactions and CS’ export-related assistance, but CS could
not provide any additional written documentation to substantiate 9 (17 percent) of the export
successes in our sample. Both posts were able to provide full documentation substantiating 26
(49 percent) successes in our sample and partial documentation for 18 (34 percent). While CS
Argentina and CS Uruguay maintained more complete export success documentation than some
other CS posts that we have recently reviewed, the documentation was not sufficient to meet the
requirements specified by the CS Operations Manual (see Figure 8).

Export success documentation guidance in effect for the export successes that we reviewed
stated that posts “should maintain accurate and complete counseling reports” and other written
communications, separate from the export success narrative, which substantiates both the key
aspects of the reported export transaction and CS’ export-related assistance. 17 Though unaware
of this guidance in the CS Operations Manual to retain written documentation on reported export
successes independent from the export success narrative, the SCO took action on his own accord
to verify select export successes and received some information directly from clients allowing
such verification.

CS management partially revised its guidance on verifying and documenting export successes on
May 18, 2006 to read:

         All CS employees who have direct contact with clients must maintain accurate
         and complete counseling reports on CMS [CS’ Client Management System]. Key
         communications that document CS assistance to the client… must be copied into
         the CMS record. In addition, hard copies of letters, faxes, and similar
         communications to and from the client must be kept on file. These records help to
         validate subsequent ES [export success] claims.

Prior CS guidance stated that CS officers should maintain such documentation as opposed to
must, as is now required. CS management is also currently revising the guidance to further
clarify what specifically is required in terms of export success documentation necessary for
verification by the approver. In accordance with this guidance, CS Argentina and CS Uruguay
should maintain written documentation independent from export success narratives to help
substantiate export successes.

Recommendations:

The Assistant Secretary for Trade Promotion and Director General of the U.S. and Foreign
Commercial Service should ensure that:
     •   CS completes its revision of the CS Operations Manual to include clear and precise
         requirements for written documentation and verification of each element of an export
         success.



17
   For an in depth discussion of this issue, see CS China Generally Performs Well, but Opportunities Exist for
Commerce to Better Coordinate its Multiple China Operations, IPE-17546, March 2006, pp. 40-41. Available online
at https://www.oig.doc.gov/oig/reports/2006/ITA-IPE-17546-03-06.pdf.


                                                      16
U.S. Department of Commerce                                                           Final Report IPE-18111
Office of Inspector General                                                                   September 2006

     •   The SCO in Argentina rescinds all invalid export successes, including the export success
         identified by our review.
     •   CS Argentina and CS Uruguay maintain adequate documentation substantiating reported
         export successes, as required by the CS Operations Manual.




ITA Response and OIG Comments

In its response to our draft report, ITA said that the May 18, 2006, changes to its export success
verification and documentation guidance were made specifically to establish stronger, clearer
verification standards for its export success claims. While these changes do provide clearer
instructions to export success authors on the types of documentation that must be maintained to
support their claims, the guidance is not clear on verification methods to be used by first-level
reviewers (approvers) of export successes. As of September 25, 2006, when we last checked, CS’
export success guidance in the CS Operations Manual did not contain instructions for export
success approvers on verification methods, as CS had proposed and outlined to the IG in its
response to our March 2006 draft inspection report on CS China. 18 That response outlined four
acceptable verification methods along with a requirement that first-line approvers confirm a
significant sampling of export successes each quarter. In addition, CS’ action plan to our CS
China final report stated that the second-level review by CS’ export success control officer
would be augmented by a review of export success records by the OIO country manager.

The ITA response to this draft report on CS Argentina and CS Uruguay does state that CS is now
modifying the standard CMS online format for submitting export success reports and, beginning
in FY 2007, CMS will not accept any export success report that does not include the author’s
statement that he or she has met all verification requirements. ITA also stated that CS will
require that first-level approvers independently confirm 10 percent of all export successes. We
acknowledge that these new reporting and verification requirements are a step forward.
However, all of these new requirements, along with the other proposed changes outlined above
and clarification on how long such documentation needs to be retained, should be specifically
incorporated into CS’ online export success guidance (in the CS Operations Manual). This will
allow all officers and commercial specialists to be aware of the new reporting requirements and
to be held accountable for adhering to them. In a September 27, 2006, email to all CS staff on
new export success drafting and approval procedures, CS management outlined specific steps
that must be taken to “ensure the integrity” of export success performance data. CS stated that it
would incorporate the revisions to the export success guidance in the CS Operations Manual and
make them effective on October 1, 2006, except as otherwise indicated. We would appreciate
receiving a copy of CS’ revised export success guidance as part of its action plan or when it is
finalized and published in the CS Operations Manual.

ITA’s response also indicated that CS had rescinded the invalid export success identified in our
report. We note that the export success in question no longer appears in eMenu. In addition, ITA

18
 CS China Generally Performs Well, But Opportunities Exist for Commerce to Better Coordinate its Multiple
China Operations, IPE-17546, March 2006.


                                                     17
U.S. Department of Commerce                                                 Final Report IPE-18111
Office of Inspector General                                                         September 2006

said that CS Argentina officers reviewed all export success stories reported in FYs 2004-2006 for
completeness and accuracy. However, we would appreciate knowing the results of the officers’
review of export successes for the past three fiscal years to ascertain whether there were any
other invalid export successes. We request that the results be provided in ITA’s action plan.

ITA also responded to our recommendation that CS Argentina and CS Uruguay maintain the
documentation required by CS’ export success guidelines. ITA’s response said that the SCO in
Argentina will ensure that the posts maintain documentation to support all future export
successes reported by CS Argentina and CS Uruguay, as required by the CS Operations Manual.




                                               18
U.S. Department of Commerce                                                                  Final Report IPE-18111
Office of Inspector General                                                                          September 2006

III.     Accounting and Financial Management Concerns Need Management Attention

During our review of CS Argentina’s and CS Uruguay’s financial management practices and
accounting, we found several matters of concern. CS Argentina was certifying its own payment
vouchers and was extensively involved in maintaining its own accounting records, functions
performed by the State Department at other CS posts. We have detailed some concerns about
these practices and provided recommendations to correct the problems noted in this chapter.

A.       CS Argentina’s certification of its own payments is not permitted by current policy and
         presents oversight challenges

CS Argentina has been certifying its own payment vouchers since a former CS Argentina officer
implemented these procedures during fiscal year 2000, in coordination with CS’ Office of
International Operations. On February 17, 2000, the former director of ITA’s Office of Financial
Management, who was also ITA’s deputy CFO, approved a cable to CS Argentina designating
the former officer as a certifying official.19 CS Argentina began certifying its own payments to
reduce the cost of financial management services provided by the State Department through the
interagency cooperative administrative support
services (ICASS) program and to improve the
                                                          Figure 9: The Interagency Cooperative
quality of financial services at the post (see figure     Administrative Support Services (ICASS)
9).
                                                                    ICASS was established to eliminate duplicative
CS Argentina’s payment certification process is                     administrative services at U.S. overseas
                                                                    missions. The State Department (State) and the
not consistent with Commerce policy
                                                                    U.S. Agency for International Development
                                                                    (USAID) provide administrative services to
Both the former CS Argentina officer who                            other U.S. government agencies operating
established the payment certification program and                   overseas, including the Department of
the current CS Argentina financial and                              Commerce. Agencies reimburse State and
                                                                    USAID a prorated portion of the costs incurred
administrative specialist told us that the quality of
                                                                    for services, which are divided into 32 separate
financial management services provided through                      cost centers at large posts and 16 at smaller
ICASS during FY 1999 and FY 2000 was poor,                          ones. Each cost center has a specific workload
specifically citing late payments to vendors. The                   factor used to allocate the service costs among
former deputy CFO for ITA also said CS’                             overseas agencies. Agencies are also charged
                                                                    overhead and some staff costs (known as
payments to its local vendors in Argentina were
                                                                    ICASS distribution charges) not allocated to
late during FY 2000 because of poor services                        specific cost centers. A post’s ICASS council,
provided by the State Department. 20 By certifying                  which oversees the post’s administrative
its own vouchers, CS Argentina has been able to                     operations, can approve a reduced charge
pay its local vendors in a more timely manner.                      (either 30 or 60 percent of the normal rate) for
                                                                    a service not fully utilized.
The ICASS council in Argentina has agreed to                        Source: CS and State Department Staff;
charge CS reduced fees for the “voucher” ICASS                      Foreign Affairs Manual


19
   The former Director of ITA Office of Financial Management and Deputy CFO did not have the authority to
designate certifying officers at the time this cable was issued, but was granted such authority on February 24, 2000.
20
   In 2000, the former deputy CFO for ITA went to Argentina to implement a purchase card program for the post,
which allowed CS to make some of its payments to local vendors through government credit cards and credit card
convenience checks and bypass ICASS financial management services.


                                                         19
U.S. Department of Commerce                                                                  Final Report IPE-18111
Office of Inspector General                                                                          September 2006

cost center because CS certifies its own payments. At the time of our review, CS Argentina paid
only 30 percent of the typical fee for the voucher cost center. 21 We estimate that CS Argentina’s
ICASS charges in FY 2005 would have been approximately $2,050 higher if CS had fully
participated in the voucher cost center. 22 CS Argentina’s charges for this cost center fell from
$16,081 in FY 2000 to approximately $877 in FY 2005, when it processed 65 vouchers through
ICASS. 23 While CS’ certification of its own vouchers contributed to this cost reduction, other
factors also contributed to the decline of ICASS charges. Such factors included (1) the
substantial devaluation of the Argentine peso in 2002 that reduced the U.S. dollar costs of the
ICASS services, and (2) a reduced number of voucher transactions, due to the increased use of
credit cards to process payments and the smaller size of CS’ staff in Argentina.

While CS’ ICASS costs decreased somewhat because of its certification activities, we found that
none of the CS personnel who were certifying CS Argentina’s payments at the time of our
inspection were properly authorized to do so. CS management did send cables to the post
designating these officials as Commerce’s certifying officials in Argentina, but CS management
did not have the authority to make such designations. According to Departmental Administrative
Order (DAO) 203-2, any such designations from Commerce must be made by the Department’s
CFO or an official delegated the authority to designate certifying officials. Within ITA, the
designated official is currently the acting chief financial officer (CFO).

DAO 203-2 also stipulates that the State Department will be designated to certify Commerce’s
payments overseas. In accordance with this requirement, the Department’s Deputy Chief
Financial Officer and Director for Financial Management has delegated authority for the
certification of all overseas payments to the State Department. This delegation was most recently
renewed on November 24, 2004. Commerce personnel in Argentina were never designated as
certifying officers by the State Department, and State’s Office of Global Financial Management
confirmed that it would not generally do so.

The acting CFO for ITA clarified ITA’s policy on overseas financial management in a June 6,
2006, memorandum addressed to the “International Trade Administration.” 24 This memorandum
not only reiterated the Department’s policy on the certification of overseas payments, it explicitly
states that the State Department is the exclusive provider of all financial management services
for ITA’s overseas posts. According to the memorandum, exceptions to ITA’s policies on
financial management at overseas posts must be approved by the CFO for ITA. The acting CFO
for ITA told us that his office had not granted such an exemption for CS Argentina, and,
therefore, CS Argentina’s certification procedures were inappropriate. A former deputy CFO for

21
   CS still pays some ICASS charges for all of its vouchers because it still relies on the State Department to process
the payments that CS has certified.
22
   CS’ direct charges for the voucher cost center would have been $1,444 more, while overhead and other ICASS
charges would have been approximately $603 higher.
23
   The direct ICASS charges for a specific cost center from FY 2000 are not directly comparable with the direct
charges for that cost center in FY 2005 because of a change in the way that ICASS charges are billed. In order to
compensate for this change, the estimate for ICASS voucher costs in FY 2005 includes a prorated amount for non-
allocated ICASS charges. The direct invoice amount for the voucher cost center in FY 2005 was $619.
24
   The Chief Financial Officer for ITA is delegated the authority of the Department’s CFO for “directing, managing,
and providing policy guidance and oversight of all agency financial management personnel, activities and
operations” within ITA, in accordance with DAO 10-5, 3.02(a).


                                                         20
U.S. Department of Commerce                                                    Final Report IPE-18111
Office of Inspector General                                                            September 2006

ITA did approve a cable designating a former CS Argentina officer as a certifying officer on
February 17, 2000. At the time of this approval, however, the former deputy CFO did not have
the authority to designate certifying officers, and the current staff in ITA’s Office of Financial
Management was not aware of CS Argentina’s unique accounting and financial management
practices until notified by the OIG during the course of our review.

At the time of our review, all current and former CS staff in Argentina acting as certifying
officials had a good-faith understanding that Commerce had officially designated them as
certifying officials, as indicated in the cables sent to the post by CS headquarters staff.
Notwithstanding any potential liability for past payments, CS Argentina’s certifying officials
may incur personal liability if these officials continue to certify payments despite notification
that they have not been officially designated as Commerce certifying officials.

To comply with ITA’s current policies on overseas accounting and payments, CS Argentina
should have the State Department certify its payments in Argentina, as at other posts.
Alternatively, CS could obtain official designations of certification authority for the relevant
personnel in Argentina from the CFO for ITA and work with the ITA CFO to develop an
adequate oversight program for CS’ payment certification in Argentina. CS management should
also coordinate any future changes in its overseas financial management practices closely with
the CFO for ITA or his designated official. If CS Argentina should find that it once again has
problems with the timeliness of the State Department’s payments or other State administrative
services, it should address them through the post’s ICASS council.

CS Argentina’s experience shows that self-certification of payments has some potential
benefits but presents significant management and oversight challenges

CS Argentina originally sought the authority to certify its own payments in order to lower its
ICASS expenses and speed the processing of its payments. CS management asked us to evaluate
the advantages and disadvantages of CS Argentina’s payment certification program in order to
help management determine whether it should expand this program to other posts. While we
found that CS Argentina marginally lowered its ICASS charges and gained more control over the
timing of its payments, we also found substantial barriers to implementing the program
successfully at other posts.

ICASS charges would vary. If CS certified its payments at other posts, ICASS charges would
vary depending on post-specific factors, such as the number of vouchers processed and the cost
of local ICASS services. Since the CS posts would still rely on the State Department to process
the actual payments (requiring participation in the voucher cost center), each post would also
have to negotiate any fee reduction with its respective ICASS council. Other councils may not
approve a reduced ICASS fee, and if they did so, the fee may be not be the same as that
negotiated in Argentina.




                                                 21
U.S. Department of Commerce                                                                      Final Report IPE-18111
Office of Inspector General                                                                              September 2006



                                                                   Administrative responsibilities would
 Table 3: Assessment of CS’ Payment Self-
 Certification                                                     increase. Certification of payments at other
                                                                   posts could substantially increase CS’
       Advantages                      Challenges                  administrative responsibilities by making
                                                                   the certifying officials legally responsible
 • Potential for reduced     • Need to obtain                      for each payment. 25 CS posts certifying
   ICASS charges, as           certification authority             payments would have to maintain both a
   negotiated on a post-       from ITA
                                                                   primary certifying official, who must be an
   by-post basis             • Greater administrative
 • More control over           responsibilities for CS             American officer, and an alternate
   the timing of             • Personal liability for CS           certifying official, who can be locally-hired.
   payments                    officers                            All incoming commercial officers assigned
                             • Need to train each new              this responsibility would need to receive
                               incoming certifying                 proper training on certification duties from
                               officer
                             • Continued reliance on
                                                                   the Foreign Service Institute, another added
                               State to process payments           cost for CS. In addition, the new officers
                               even if CS certifies the            would have to be willing to accept both the
                               payments                            substantial personal liability and the
                             • Need to develop an                  administrative burden associated with
                               effective audit and                 certifying payments.
                               oversight program
 Source: OIG Analysis
                                                        State services would still be required.
                                                        Even if posts assumed payment
certification, they would still have to rely on the State Department for many of the financial
management services necessary to complete certification and to process CS’ overseas payments.
Even if CS staff certifies a payment, the State Department still must process the payment in its
accounting system and make the actual payment to the vendor. Certifying payments and
verifying funds availability would also require CS staff to have real-time access to the State
Department’s official accounting records. CS posts have read-only access to these records
through a software viewer tool, but cannot make any accounting entries.

CS headquarters oversight would be required. Certification of payments also requires
oversight from CS headquarters in order to maintain adequate management controls over the
process (see table 4). The current acting CFO for ITA was unaware of CS Argentina’s
certification activities and, therefore, had not conducted a review. If CS posts were to continue to
certify their own payments, ITA would have to develop the capacity to audit the process and
review the adequacy of the management controls, including the segregation of duties. At other
CS posts, the State Department performs regular audits of payment activity and reviews the
management controls and segregation of duties of the payment process at a post. State also hires
external auditors who periodically visit posts to review financial management activities,
including payment vouchers.


25
   Personal liability for certifying officials is described in 31 U.S.C. § 3528, which states that certifying officials are
personally liable for repaying any payment that is: (a) illegal, improper, or incorrect because of an inaccurate or
misleading certificate; (b) prohibited by law; or (c) that does not represent a legal obligation under the appropriation
or fund involved.


                                                            22
U.S. Department of Commerce                                                                 Final Report IPE-18111
Office of Inspector General                                                                         September 2006


     Table 4: Comparison of the Internal Controls for Payments at CS Argentina and Other Posts

                                   CS Argentina                                     Other CS Posts
                         Acting                Action                 Acting                    Action
                      Organization           Description           Organization               Description
                                       CS staff acknowledges
     Step 1                                                                           CS staff acknowledges
                          CS           goods received and CS           CS
     Payment                                                                          goods received and CS
                       Argentina       officer approves                Post
     Authorization                                                                    officer approves payment
                                       payment
     Step 2                                                           State’s
                          CS                                                          State financial management
     Payment                           CS certifies the payment    administrative
                       Argentina                                                      officer certifies the payment
     Certification                                                    officers
                                                                                   The Office of Global
                                       CS accountant
                                                                                   Financial Management
     Step 3                            reconciles transaction      State Office of
                          CS                                                       verifies transaction before
     Transaction                       with State accounting      Global Financial
                       Argentina                                                   executing the payment, and
     Review                            records and CS’              Management
                                                                                   conducts regular audits of
                                       cuff records
                                                                                   payment activity
     Step 4                                                                           External auditors review
                                                                      State
     External Audit                No action taken                                    overall post financial
                                                                   Headquarters
     Oversight                                                                        management activity
Source: Department of State, CS Argentina, OIG Analysis

CS Argentina’s experience in certifying its own payments shows that it would be extremely
difficult to replicate the process at other posts, and the benefits of doing so are uncertain.
Expanding this program to other posts would require CS to adopt additional administrative
burdens; ITA would also need to develop an effective oversight process. In return for these
substantial investments, CS would still rely on the State Department to process its payments and
would not be certain of reducing its ICASS charges.

B.         CS Argentina’s accounting practices are inconsistent with ITA policy and bypass
           Commerce’s internal controls

Our review found that CS Argentina does not fully participate in the State Department’s accounts
and records ICASS cost center, thus State does not provide all the accounting services that it
typically provides to CS posts. According to the State Department’s Financial Management
Officer in Argentina, State does not provide full accounting services to CS in Argentina.
Currently, CS prepares memos that report CS’ accounting transactions to the State Department.
The State Department, in turn, enters these transactions into its accounting system. Thus, State
does report CS Argentina’s accounting transactions to the National Business Center 26 through
State’s accounting system, but State Department personnel do not provide the added internal
controls normally associated with verifying, auditing, or reconciling CS’ accounting transactions.




26
  The National Business Center in Denver, Colorado, (part of the Department of the Interior) is ITA’s accounting
service provider in the United States.


                                                        23
U.S. Department of Commerce                                                               Final Report IPE-18111
Office of Inspector General                                                                       September 2006

CS Argentina’s accounting practices have marginally reduced the post’s ICASS expenses, 27 but
also require that the post maintain its own accountant.

CS Argentina’s current accounting practices are not consistent with ITA’s overseas financial
management policy, which holds that all overseas financial management services be provided by
the State Department. This policy was reiterated in the Acting CFO for ITA’s June 6, 2006,
memorandum (see page 21). CS Argentina’s accounting practices also bypass the Department’s
internal controls for accounting at overseas posts, which primarily rely on the State Department’s
oversight of its own financial management activities. Neither ITA’s Office of Financial
Management nor ITA’s accounting service provider regularly reviews or audits overseas
accounting records maintained by the State Department. Although Commerce’s OIG does
review a sample of these transactions at one selected overseas post as part of its annual financial
statement review, the Department primarily relies on State to review, audit, and certify the
accuracy of the accounts that it keeps on behalf of Commerce.

To ensure adequate oversight of CS Argentina’s accounting practices, CS Argentina should
either have the State Department keep its accounting records, or should work with ITA’s Office
of Financial Management to establish adequate controls and oversight of its current accounting
practices. ITA should ensure that the Office of Financial Management reviews CS’ accounting
and payment certification in Argentina since FY 2000, as necessary, to determine whether there
have been any financial irregularities that would materially affect the Department’s financial
reporting. At the time of our review, ITA’s Office of Financial Management was unaware of CS
Argentina’s unique accounting procedures and had not reviewed or audited CS Argentina’s
accounts.

C.      CS and ITA should improve communication of overseas financial management
        policies

During the course of our review, we also found that ITA’s financial management policies for
overseas posts were not being adequately communicated to the relevant CS officials. Although
the acting CFO for ITA told us that he holds regular meetings with CS management, at least two
former Deputy Assistant Secretaries for International Operations and other CS officials approved
cables designating CS staff in Argentina as certifying officials, even though these officials had
no authority to make such designations. After the OIG inspectors brought this matter to the
attention of ITA’s Office of Financial Management, the acting CFO for ITA approved a
memorandum on June 6, 2006, clarifying ITA policy on financial services at overseas posts.
However, we found that relevant officials within CS were unaware of this memorandum almost a
month later. The acting CFO for ITA told us the memorandum was made available on the web
site of ITA’s Office of Financial Management, but this was insufficient to reach the attention of
key CS officials. We also found that the guidance on CS’ eMenu intranet site was out of date.
The link for ITA’s Online Overseas Financial Policies and Procedures Manual lead to a web
page that was last updated on December 9, 1999, and did not have a copy of the June 6, 2006
memorandum. CS management should work with the CFO for ITA or his designated official to

27
  Because CS Argentina opted out of some of the services provided under the “accounts and records” ICASS cost
center, CS was only charged 60 percent of the usual fee for that cost center. We estimate that this fee reduction
lowered CS Argentina’s FY 2005 ICASS charges by about $3,400.


                                                        24
U.S. Department of Commerce                                                                  Final Report IPE-18111
Office of Inspector General                                                                          September 2006

improve communication of ITA’s financial management policies for overseas posts to CS
personnel. CS management should also ensure that ITA policy is fully reflected in official CS
policy guidance, such as the CS Operations Manual.

D.       Accounting records for CS Argentina show unliquidated obligations for inactive
         transactions

ITA’s official accounting records as maintained at headquarters contain unliquidated obligations
for inactive CS Argentina accounting transactions for FY 1999 through FY 2004. The
“undelivered orders” report showing CS Argentina’s unliquidated obligations also contains
negative obligation balances that appear to result from errors in tallying the net unliquidated
balances for individual transactions. The net value of the inactive obligations on this report is
$64,223.98. These funds were not obligated at the post, and so are not reflected in the post’s
accounting records. 28 This amount includes a balance of $36,200 from FY 2000 described in the
accounting records as being obligated to “MISCELLANEOUS NON-GOVT.” 29 All of the other
apparently inactive obligations, totaling $28,023.98, appear to be for travel orders for officers
who either are no longer posted to CS Argentina or have retired from the Commercial Service.
ITA’s Office of Financial Management should work with the National Business Center to
deobligate these fund balances, as appropriate, and should correct the apparent computational
errors on the undelivered orders report, as necessary.

E.       CS Uruguay collects and retains user fees for services provided by the State
         Department

The CS office in Uruguay consists of two State Department commercial specialists working side-
by-side with two Commerce commercial specialists under the direction and day-to-day
management of the State Department’s economic counselor. All four commercial specialists
provide CS products and services to U.S. companies, including Gold Key and International
Partner Search services. CS collects and retains its usual fee for all of these services, including
the services provided primarily by State Department staff. This structure effectively serves
exporters but creates challenges for effectively managing user fees collected by the office.

There are many State Department posts around the world with no Commerce officers. At these
so-called “partnership posts,” the State Department is responsible for the embassy’s commercial
function, and often provides U.S. companies with traditional CS products and services. At some
partnership posts, CS may have locally-hired staff, but the State Department retains some
responsibility for commercial affairs. 30 CS is currently working with the State Department to
establish formal procedures for fee collections and product and service delivery at partnership
posts, but these policies have not yet been finalized or approved. At partnership posts other than
Uruguay, CS told us that it transfers fees that it collects on behalf of the State Department to the

28
   Obligations made at the post are clearly identified in ITA’s accounting records as being reported through the State
Department’s accounting system. Other obligations in the accounting records are made at headquarters or at the
National Business Center in Denver.
29
   The budget object code identifies the transaction as “MISC CONTR SERV NOT OTHWSE IDE.”
30
   Examples of such posts include Montevideo, Uruguay; Rabat, Morocco; Beirut, Lebanon; and Tegucigalpa,
Honduras.


                                                         25
U.S. Department of Commerce                                                     Final Report IPE-18111
Office of Inspector General                                                             September 2006

local State Department post. We confirmed that such transfers have occurred for some CS
partnership posts in Africa.

According to CS records, Commerce collected a total of $5,350 in FY 2005 and $1,470 in FY
2006 (as of June 15, 2006) in user fees for services provided by both CS and State Department
staff in Uruguay. In addition, we estimate that, as of the beginning of FY 2005, CS Uruguay still
had $3,266 remaining from fee collections in prior fiscal years (FY 2004 or earlier). CS did not
spend or transfer any of these funds during FY 2005. In FY 2006, it obligated $2,025 for a CS
commercial specialist to attend a trade show in the United States, leaving an estimated $8,061 in
collected user fees available for expenditure in the post’s trust fund as of June 15, 2006. At that
time, none of these funds had been transferred to the State Department or had been spent to
benefit the State Department or its personnel, even though State Department staff provided many
of the services for which the fees had been collected.

We could find no relevant authority that authorizes CS Uruguay to retain fees collected for
services that its employees did not provide. Relevant guidance on the collection and
disbursement of user fees is found in the Office of Management and Budget Circular A-25, 31
chapter 12 of the Department’s Accounting Principles and Standards Handbook, and section
12.5 of the CS Operations Manual. All of these guidelines indicate that user fees are primarily
intended to reimburse an agency for costs that it incurred in providing products and services to
an individual entity that are not available to the general public. Because Commerce did not incur
any substantial costs in the services provided by State Department staff, it should not retain the
fees collected for these services. Commerce should transfer these user fees directly to the State
Department post in Uruguay for State’s retention or proper disposition of the fees, or should
consult with the Office of General Counsel to determine an acceptable alternative mechanism for
collecting and disbursing the fees. The policies that CS is currently developing to clarify
procedures for service provision and fee collection and disbursement at partnership posts should
also specify appropriate arrangements for posts such as Uruguay where State commercial
specialists provide some of CS’ fee-based services.

Recommendations:

The Assistant Secretary for Trade Promotion and Director General of the U.S. and Foreign
Commercial Service should ensure that:
       •   CS Argentina fully complies with ITA’s and the Department’s policies on overseas
           financial management by resuming its full participation in the relevant ICASS financial
           management cost centers.
       •   CS management coordinates any future changes in its overseas financial management
           practices closely with the CFO for ITA or his designated official.
       •   User fees collected by CS for services provided by the State Department in Uruguay are
           transferred directly to the State Department for their retention or proper disposition, or
           are handled in accordance with alternative guidance from the Office of General Counsel.


31
     OMB Circular A-25, User Charges (7/8/1993).


                                                   26
U.S. Department of Commerce                                                   Final Report IPE-18111
Office of Inspector General                                                           September 2006

   •   CS finalizes and issues its policies on service provision and on fee collection and
       disbursement at partnership posts. Such policies should include detailed procedures for
       fee collection and disbursement at all posts where the State Department provides services
       for which CS collects fees, including those where CS also maintains staff.

The Undersecretary for International Trade should ensure that:
   •   ITA’s Office of Financial Management reviews CS’ accounting and payment certification
       in Argentina since FY 2000, as necessary, to ensure that there have been no financial
       irregularities.
   •   ITA’s policies on overseas financial management are (1) clearly communicated to CS
       headquarters and overseas personnel, (2) fully reflected in the CS Operations Manual,
       and (3) incorporated into relevant training materials for CS’ officers and administrative
       staff.
   •   ITA’s Office of Financial Management works with the National Business Center to de-
       obligate inactive obligations and address computational errors in CS Argentina’s
       undelivered orders report.



ITA Response and OIG Comments

In response to our draft report, ITA stated that CS Argentina has discontinued the practice of
certifying its own payments, thus bringing CS Argentina’s certification process in line with ITA
policy. The response also states that, in the future, CS will seek written approval from the CFO
for ITA prior to changing any financial management practices. ITA’s response stated that “CS
Argentina’s official accounting records are maintained by the Department of State,” but did not
discuss the draft report’s observation that State was not performing normal accounting oversight
functions for CS Argentina. ITA’s response did note that CS Argentina is very careful about
recording obligations in the State Department accounting system, even for types of transactions
that might normally be obligated and liquidated simultaneously.

At the time of our review, the State Department’s Financial Management Officer told us that
State did not provide full accounting services for CS Argentina. Instead, State only recorded
transactions for CS Argentina into State’s accounting system. This is consistent with ITA’s
response, which states that CS Argentina does not fully subscribe to State’s accounts and records
ICASS cost center, and also with the subscription of services referenced in ITA’s response. We
recognize that CS Argentina is very active in recording obligations in the State Department
accounting system, a practice that should improve the accuracy of funds availability reports from
this system. As noted in the draft report, however, CS Argentina’s lack of full participation in
State’s accounting services calls into question the effectiveness of the internal controls that ITA
has established for accounting at overseas posts, which rely on State to verify, reconcile, and
audit overseas accounting records. In the future, ITA’s Office of Financial Management must
either ensure that the accounting services provided by State for CS Argentina are consistent with
ITA’s established internal controls for overseas posts, or ITA must establish separate oversight
processes for the post.


                                                27
U.S. Department of Commerce                                                 Final Report IPE-18111
Office of Inspector General                                                         September 2006


ITA’s response did not concur with our recommendation that CS Uruguay transfer those user
fees that it collects on behalf of the State Department back to the State Department. The
response stated that such transfers would require that ITA send new funding cables to the post
for each collection. ITA also noted that the spirit of cooperation between the Commerce and
State staff in Uruguay “could be damaged by a new emphasis on division of collections.”
Instead, ITA proposed that the user fees be kept in CS accounts, and the SCO in Argentina and
the Economic Counselor in Uruguay would make joint decisions on expending the user fees. In
response to our recommendation that CS finalize its policies on service provision and fee
collection and disbursement at partnership posts, ITA’s response promised a renewed effort to
gain concurrence from the State Department and Commerce’s Office of General Counsel on
policies that it had previously developed and sent to State for review.

As was noted in our draft report, we recognize that CS and the State Department maintain a
collaborative and cordial working relationship in Uruguay, and this relationship helps both
organizations serve their clients. Despite this close working relationship, CS does not have the
authority to retain user fees that it collects on behalf of the State Department. The measures
proposed by ITA’s response do not represent a substantial change from the procedures that were
in place at the time of our inspection, which resulted in CS’ unauthorized retention of fees
collected for services provided by the State Department. ITA’s response also does not adequately
explain why CS is able to send funding cables to the State Department for some partnership
posts, but cannot do so for Uruguay. ITA’s commitment to renew efforts to coordinate with State
to develop a permanent policy on service provision and fee collection at partnership posts is
welcome. ITA should ensure that this policy contains sufficient detail on fee collection and
disbursement for services provided by State Department personnel, and it should address our
concerns with the current fee collection procedures in Uruguay. In the interim, however, CS
should implement procedures in Uruguay that are consistent with federal policies governing user
fees and are not totally dependent on the goodwill between the current SCO in Argentina and the
current Economic Counselor in Uruguay. If CS does not transfer these funds directly to the State
Department, it should gain concurrence from the Office of General Counsel for any alternative
arrangement.

With regard to our recommendations that ITA review CS Argentina’s accounting and payment
certification since FY 2000 and that ITA’s Office of Financial Management better communicate
its policies on overseas financial management to CS personnel, ITA’s response indicates that it
will fully implement both of these recommendations.

ITA also committed to deobligating inactive obligations in its accounting records, in response to
our recommendation. ITA’s response acknowledged that its lease payments in FY 2001 were not
liquidated against the obligation made for those leases during FY 2000, and the FY 2000
obligation was never deobligated. The response attributes this error to changes in the way that
ITA obligated prepaid leases. As a result, the large obligation ($36,200) that we highlighted in
our draft report remains on ITA’s books, and ITA should deobligate these funds. Because this
issue arose from an organization-wide change in obligating procedures in FY 2001, ITA should
also review the accounting records of other CS posts and should similarly address any
outstanding obligations for prepaid leases made in FY 2000.



                                               28
U.S. Department of Commerce                                                    Final Report IPE-18111
Office of Inspector General                                                            September 2006


The draft report noted that there appeared to be coding errors in the budget object class field that
had prevented the liquidations of some obligations in ITA’s accounting records. ITA’s response
clarified its use of the budget object class field, showing that there was no coding error
associated with this data field. We maintain, however, that the unliquidated obligations (or
“undelivered orders”) report that ITA provided to us contains errors because many of the
balances listed on the report are not calculated in the manner specified by ITA’s response (“the
net of all obligation line items having the same transaction ID”). We have amended our report to
remove references to coding errors, but we ask that ITA review its unliquidated obligations
reports and correct the reports, as necessary.




                                                 29
U.S. Department of Commerce                                                                   Final Report IPE-18111
Office of Inspector General                                                                           September 2006

IV.      Administrative Management Can Benefit From Minor Improvements

We found that CS Argentina’s and CS Uruguay’s management of its human resources, physical
office space, information technology, and other administrative matters is generally effective.
However, we did find some relatively minor administrative issues at both posts that warrant
management attention, including a temporary lapse in petty cash fund audits and improper
authorizations of cash reimbursements in Argentina. Inventory management, particularly in
Uruguay, needs improvement. The retention of obsolete and surplus items at both posts indicates
the need for CS to improve its guidance on inventory management and the disposal of excess
property.

A.       CS Argentina’s administrative operations are mostly well managed

We found that human resources were effectively managed at both CS Argentina and CS
Uruguay. The State Department human resources officer praised CS Argentina’s junior officer
for working through a backlog of late performance appraisals upon her arrival at the post. Both
the SCO and the human resources officer also praised the junior officer for effectively managing
the complex and time-consuming task of updating delinquent computer-aided job evaluations for
most of the CS Argentina staff. 32 In addition, most staff at both offices spoke well of current
management practices and the accessibility of the SCO. Most staff felt that CS provided
adequate training opportunities, although we noted that CS should provide better training on
conducting export control end-use checks. All of these factors contributed to the apparently high
staff morale at both posts.

We also found that CS Argentina has been proactive in using the Internet to support the post’s
trade promotion activities. CS Argentina maintains a comprehensive Internet site with
information on CS Argentina, the Patagonia region of Argentina, and the River Plate Initiative. 33
CS Argentina was also the first embassy section to provide Internet content for the embassy’s
Patagonia “virtual consulate.” 34 While CS Argentina’s current web effort is commendable, the
post could improve its website with a few minor additions. An example would be to supplement
its country-specific trade information with details found on other CS posts’ web sites, such as
featured U.S. suppliers, business etiquette for Argentina and Uruguay, and pointers to help
American companies navigate through trade regulations, tariffs, import barriers, and product
standards.



32
   The State Department uses a world-wide job evaluation tool, known as Computer Aided Job Evaluation (CAJE),
to review and revise FSN/PSA position classifications and grade levels. CAJE is used to objectively review the
content of each job based on several factors, including job responsibility; knowledge, skills, and abilities required to
perform the job; the level of interaction with others; and work environments. If the CAJE review determines that a
position classification is inaccurate or out-of-date, the position classification will be revised to reflect any
discrepancies identified during the review. Conducting timely CAJE reviews to ensure that FSN/PSA position
classifications and grade levels are current is an essential practice for proper administrative management.
33
   Available online at http://www.comerciousa.org/argentina/En/setenglish.asp (accessed July 18, 2006).
34
   “Virtual consulates” is a State Department initiative that serves as an extension of the American presence in places
where there are no physical consulates. The initiative reaches out to people in these areas through region-specific
online-content that is supplemented by scheduled visits and presentations by American officers or other guests.


                                                          30
U.S. Department of Commerce                                                               Final Report IPE-18111
Office of Inspector General                                                                       September 2006

We did not find problems with security practices and emergency preparedness at either CS
Argentina or CS Uruguay. Both offices are collocated within U.S. embassies and are physically
secured by the protection afforded to embassy grounds. The regional security officers at both
embassies reported no problems or concerns with either CS staff or operations. Earlier this
calendar year, all CS Argentina staff attended mandatory refresher training on emergency and
evacuation procedures, and all have emergency escape hoods. The SCO recently assigned a
member of the CS Argentina staff to ensure that the two CS staff members in Uruguay have
emergency escape hoods and training in emergency and safety procedures.

Our reviews of CS’ physical office space management did not reveal any issues, and our audit of
CS’ petty cash fund did not reveal any accounting discrepancies. However, CS did not conduct
regular petty cash fund audits for a period of several months when the junior officer in charge of
this function was on extended leave. We also found that the junior officer had approved several
of the SCO’s cash reimbursement vouchers during FY 2005, approvals which were inconsistent
with Commerce’s financial management policies 35 . By the time of our review, CS had resumed
monthly audits of its petty cash fund and the Deputy Chief of Mission confirmed that he was
now approving the SCO’s reimbursement vouchers. CS Argentina should continue to ensure that
its petty cash fund is audited every month and that future SCO reimbursement vouchers are not
approved by the SCO’s subordinates.

During our review of CS Uruguay, we found that the office did not have a central telephone
number for individuals attempting to reach the CS office through the embassy’s general
switchboard. Callers who selected the commercial section from the embassy’s automated
directory were directed to the personal line of a State commercial specialist. During our visit, this
specialist was on vacation, and all calls were routed to his personal voicemail. We discussed this
issue with the State Department’s economic officer in Uruguay and the SCO for CS Argentina.
Both officers were unaware of the situation, but indicated they would promptly resolve the issue.

B.      Better inventory practices and guidance on property disposal are needed

CS policy requires inventory records for physical property, which serve as a basis for
accountability and support budget estimates for replacement costs. CS Argentina and CS
Uruguay are responsible for maintaining accurate inventory logs and disposing of obsolete or
other surplus property. During our review, we performed unannounced physical checks of
inventoried property at both posts and reconciled the property on hand with inventory records.

We found careful accounting of property at CS Argentina. All items had proper bar code labels
that matched inventory logs, and the property custodian maintained detailed inventory logs
identifying all relevant post property. The post’s inventory log matched the one at CS

35
  According to policies issued by the Department’s Office of Financial Management, no one person may control all
phases of a transaction, so subordinates should not be allowed or required to approve cash reimbursements for their
supervisors. The requirements of segregating and separating these duties are found in Commerce’s Cash
Management Policies and Procedures Handbook, available online at www.osec.doc.gov/ofm/cash/chptr8.pdf, and
Accounting Principles and Standards Handbook, available online at www.osec.doc.gov/ofm/acctg/chptr6.pdf (both
accessed July 27, 2006).



                                                        31
U.S. Department of Commerce                                                                Final Report IPE-18111
Office of Inspector General                                                                        September 2006

headquarters. The logs included bar code numbers, manufacturer names, serial numbers, item
descriptions, and the initials of staff members possessing the items. Although CS Argentina’s
property custodian only performs reviews of personal property twice per year instead of
quarterly as required by CS policy, we found that CS Argentina’s property inventory records
were detailed and carefully managed. During our review, we found that the post retained
obsolete and other surplus property, including cell phones and laptop computers. The SCO
expressed uncertainty as to how the office should dispose of such equipment.

At CS Uruguay, we conducted a thorough physical property check and found that items were not
properly coded and that inventory records for CS Uruguay were not complete or accurate. At
least 18 items did not have bar codes, as required by CS policy. At least 19 items that we
physically located were not recorded on the post’s inventory log, and some items that were
included on the post’s log were no longer physically located at the post. In addition, the
inventory list provided by headquarters, which listed only 10 items, did not match the list
maintained at the post, which had 38 items. CS Uruguay also retained obsolete and surplus items
on its inventory. CS Uruguay should conduct a complete inventory, properly mark items with bar
codes, and submit an accurate inventory list to CS headquarters.

CS posts are provided with at least three overlapping policy manuals that discuss property
management and inventory procedures, but none of these manuals provides adequate guidance
on disposing of obsolete and surplus property. CS provides property management guidance in
both its CS Operations Manual and in the Office of International Operations’ (OIO)
Administrative Manual, but neither manual discusses acceptable procedures for disposing of
surplus items. The manuals also do not detail procedures for protecting licensed software and
sensitive information contained on obsolete or surplus computers. 36 According to OIO’s
Administrative Manual, items may be sold, donated or transferred through the embassy after the
post receives specific approval from the CS budget officer in Washington. 37 This manual also
specifies that posts must have approval from both OIO, through its CS’ budget officer, and from
the Office of the Chief Information Officer to dispose of computer and some other equipment. 38

CS’ guidance on managing property and keeping property inventories is supplemented by
guidance in ITA’s Online Overseas Financial Policies and Procedures Manual. Property
disposal procedures outlined in this manual, however, assume that “disposal arrangements are
usually handled by the State Department.” 39 This guidance is not applicable for many CS posts,
however, because CS headquarters has encouraged posts to opt out of ICASS inventory services.
This not only prevents CS from participating in the State Department’s regular auctions of

36
   The CS Operations Manual provides limited reference to ITA’s policies and procedures for donating excess
computers to schools and nonprofit organizations, but these procedures are not relevant for overseas offices.
37
   The CS Operations Manual does not provide guidance on how to dispose of property properly. However, the OIO
Administrative Manual has a section on property management that briefly describes what factors and steps posts
must consider before disposing of property. One step requires that posts must have approval from OIO before
disposing property.
38
   The manual does not specify which Office of the Chief Information Officer should be consulted (there is such an
office both within ITA and for the entire Department), nor does the manual provide a specific point of contact within
the office.
39
   International Trade Administration Online Overseas Financial Policies and Procedures Manual, available online
at https://ourplace.ita.doc.gov/intranet3.nsf (accessed August 3, 2006).


                                                         32
U.S. Department of Commerce                                                  Final Report IPE-18111
Office of Inspector General                                                          September 2006

surplus property, it also adds an additional administrative burden for the posts. If CS
headquarters expects its offices to independently manage inventories, it should provide clear and
practical guidance on how posts should sell or otherwise dispose of excess property, including
computer equipment that contains licensed software and/or sensitive data.

Recommendations:

The Assistant Secretary for Trade Promotion and Director General of the U.S. and Foreign
Commercial Service should ensure that:
   •   CS Argentina audits its petty cash fund every month;
   •   The Argentina SCO’s reimbursement vouchers continue to be approved by the Deputy
       Chief of Mission or another appropriate official who is not the SCO’s subordinate;
   •   CS Uruguay coordinates with the State Department to develop a centralized telephone
       number for the commercial section;
   •   CS Argentina and CS Uruguay comply fully with CS policy on property management,
       including the requirement to conduct quarterly reviews of inventoried property;
   •   CS Uruguay develops and provides to headquarters a comprehensive and correct
       inventory listing and marks all equipment with bar codes;
   •   CS Argentina and CS Uruguay assess their inventories for obsolete and surplus items and
       consult with CS headquarters on their disposal; and,
   •   CS headquarters provides clear and practical guidance for posts to dispose of excess
       property, including computer equipment that contains licensed software and/or sensitive
       data. Such guidance should be consistent among the CS Operations Manual, OIO
       Administrative Manual, and ITA’s Online Overseas Financial Policies and Procedures
       Manual or should be consolidated into one manual. CS’ guidance should also be
       consistent with controls for media protection provided in Commerce’s IT Security
       Program Policy and Minimum Implementation Standards.




ITA’s Response and OIG Comments

In its response to recommendations in our draft report, ITA stated that CS Argentina will
continue to audit its petty cash fund every month as required by ITA policy. It will also continue
to have the SCO’s reimbursement vouchers approved by the Deputy Chief of Mission or another
appropriate official who is not the SCO’s subordinate. ITA reported that CS Uruguay has
coordinated with the State Department and established a menu option for the Commercial
Section on the embassy’s main telephone line. Incoming calls ring on all extensions and if no
one is able to answer, calls transfer to a Commercial Section voicemail. All staff members have
access to the voice mail and receive message alerts.




                                                33
U.S. Department of Commerce                                                  Final Report IPE-18111
Office of Inspector General                                                          September 2006

ITA’s response also stated that CS Argentina and CS Uruguay will begin to conduct quarterly
inventories of CS office and residential furniture and equipment. Both posts will reconcile
inventories on or around the 1st of November, February, May, and August. On August 28, 2006,
CS Uruguay assumed complete management responsibilities for its property from CS Argentina.
It is now in the process of conducting an initial inventory. The designated property custodian will
conduct a complete and thorough review of all its property located in its offices and storage,
label property with bar codes, control the existing list of properties, and resolve discrepancies
with previous inventory reports. CS Argentina will provide relevant information to the OIO
property manager regarding the transfer of bar code labels from CS Argentina to CS Uruguay.
Both posts will evaluate their inventories to identify obsolete or surplus items and will request
approval from their regional office prior to disposing of property. CS Argentina has developed
an arrangement with the State Department to transfer, sell, and dispose of its unnecessary and
obsolete property.

Regarding our recommendation for clear and practical inventory guidance, ITA’s response noted
that CS issued an email in February 2005 that instructed posts to seek approval from their
regional offices for disposal of excess property. ITA’s response explained that authority to
dispose of property is granted via email messages from regional offices and includes procedures
for cleaning information technology equipment prior to sale or donation. However, these
instructions are not consistent with guidance provided in the OIO Administrative Manual. In
addition, the procedures provided in authorization emails for cleaning equipment are insufficient
and do not comply with controls for media protection provided in Commerce’s IT Security
Program Policy and Minimum Implementation Standards. Providing accurate guidelines for
securing information technology assets is particularly important given heightened concerns over
the security of sensitive information stored on government computers, hand-held devices, and
other equipment.

ITA’s response also indicated that it is developing guidance for disposing of property at posts
that do not subscribe to the relevant State Department ICASS services, and it will include this
guidance in the OIO Administrative Manual. In revising its guidance on inventory management,
ITA should also ensure that the guidance for CS staff is complete and consistent between the
three separate manuals that cover inventory management (the CS Operations Manual, the OIO
Operations Manual, and the ITA Online Overseas Financial Policies and Procedures Manaual),
or it should consolidate such guidance for posts in one manual. The procedures should include
comprehensive instructions for cleaning various types of technology equipment that comply with
Commerce’s policies for safeguarding information stored on these types of items. Please include
a progress report on the development of the inventory guidance and, if completed, copies of the
updated guidance in ITA’s action plan for this report.




                                                34
U.S. Department of Commerce                                                 Final Report IPE-18111
Office of Inspector General                                                         September 2006

                        SUMMARY OF RECOMMENDATIONS

The Assistant Secretary for Trade Promotion and Director General of the U.S. and Foreign
Commercial Service should ensure that:
   1. CS Argentina takes action to foster greater cooperation between the senior commercial
      specialists and the less-experienced CS staff in order to help transfer the institutional
      knowledge and contacts of its senior commercial specialists (see page 10).
   2. CS schedules a meeting with BIS for commercial officers being deployed to overseas
      posts and for those who return to CS headquarters for consultation in order for them to
      receive appropriate initial or refresher training on conducting end-use checks
      (see page 10).
   3. The regional standards attaché in Brazil regularly coordinates with and provides adequate
      support to the other CS posts in South America, including the CS office in Buenos Aires
      and the economic affairs section in Montevideo (see page 10).
   4. CS completes its revision of the CS Operations Manual to include clear and precise
      requirements for written documentation and verification of each element of an export
      success (see page 16).
   5. The SCO in Argentina rescinds all invalid export successes, including the export success
      identified by our review (see page 17)
   6. CS Argentina and CS Uruguay maintain adequate documentation substantiating reported
      export successes, as required by the CS Operations Manual (see page 17).
   7. CS Argentina fully complies with ITA’s and the Department’s policies on overseas
      financial management by resuming its full participation in the relevant ICASS financial
      management cost centers (see page 19).
   8. CS management coordinates any future changes in its overseas financial management
      practices closely with the CFO for ITA or his designated official (see page 26).
   9. User fees collected by CS for services provided by the State Department in Uruguay are
      transferred directly to the State Department for their retention or proper disposition, or
      are handled in accordance with alternative guidance from the Office of General Counsel
      (see page 26).
   10. CS finalizes and issues its policies on service provision and on fee collection and
       disbursement at partnership posts. Such policies should include detailed procedures for
       fee collection and disbursement at all posts where the State Department provides services
       for which CS collects fees, including those where CS also maintains staff (see page 26).
   11. CS Argentina audits its petty cash fund every month (see page 33).
   12. The Argentina SCO’s reimbursement vouchers continue to be approved by the Deputy
       Chief of Mission or another appropriate official who is not the SCO’s subordinate (see
       page 33).
   13. CS Uruguay coordinates with the State Department to develop a centralized telephone
       number for the commercial section (see page 33).



                                               35
U.S. Department of Commerce                                                 Final Report IPE-18111
Office of Inspector General                                                         September 2006

   14. CS Argentina and CS Uruguay comply fully with CS policy on property management,
       including the requirement to conduct quarterly reviews of inventoried property
       (see page 33).
   15. CS Uruguay develops and provides to headquarters a comprehensive and correct
       inventory listing and marks all equipment with bar codes (see page 33).
   16. CS Argentina and CS Uruguay assess their inventories for obsolete and surplus items and
       consult with CS headquarters on their disposal (see page 33)
   17. CS headquarters provides clear and practical guidance for posts to dispose of excess
       property, including computer equipment that contains licensed software and/or sensitive
       data. Such guidance should be consistent among the CS Operations Manual, OIO
       Administrative Manual, and ITA’s Online Overseas Financial Policies and Procedures
       Manual or should be consolidated into one manual. CS’ guidance should also be
       consistent with controls for media protection provided in Commerce’s IT Security
       Program Policy and Minimum Implementation Standards (see page 33).

The Undersecretary for International Trade should ensure that:
   1. ITA’s Office of Financial Management reviews CS’ accounting and payment certification
      in Argentina since FY 2000, as necessary, to ensure that there have been no financial
      irregularities (see page 27).
   2. ITA’s policies on overseas financial management are (1) clearly communicated to CS
      headquarters and overseas personnel, (2) fully reflected in the CS operations manual, and
      (3) incorporated into relevant training materials for CS’ officers and administrative staff
      (see page 27).
   3. ITA’s Office of Financial Management works with the National Business Center to de-
      obligate inactive obligations and address computational errors in CS Argentina’s
      undelivered orders report (see page 27).




                                               36
U.S. Department of Commerce                   Final Report IPE-18111
Office of Inspector General                           September 2006

  APPENDIX A: ITA MANAGEMENT RESPONSE TO OIG DRAFT REPORT




                              37
U.S. Department of Commerce        Final Report IPE-18111
Office of Inspector General                September 2006




                              38
U.S. Department of Commerce        Final Report IPE-18111
Office of Inspector General                September 2006




                              39
U.S. Department of Commerce        Final Report IPE-18111
Office of Inspector General                September 2006




                              40
U.S. Department of Commerce        Final Report IPE-18111
Office of Inspector General                September 2006




                              41
U.S. Department of Commerce        Final Report IPE-18111
Office of Inspector General                September 2006




                              42
U.S. Department of Commerce        Final Report IPE-18111
Office of Inspector General                September 2006




                              43
U.S. Department of Commerce        Final Report IPE-18111
Office of Inspector General                September 2006




                              44
U.S. Department of Commerce                  Final Report IPE-18111
Office of Inspector General                          September 2006

APPENDIX B: USPTO MANAGEMENT RESPONSE TO OIG DRAFT REPORT




                              45
